No. __-____

IN THE

Supreme Court of the United States
>>>>
THE STATE

OF

NEW YORK,
Petitioner,

v.

JAHMARLEY JONES,
Respondent.
On Petition for a Writ of Certiorari to the
Supreme Court of the State of New York
Appellate Division, Second Department

PETITION FOR A WRIT OF CERTIORARI

JOHN M. RYAN
Acting District Attorney
Queens County
*JOHN M. CASTELLANO
ROBERT J. MASTERS
JOSEPH N. FERDENZI
CHRISTOPHER BLIRA-KOESSLER
*Counsel of Record
ASSISTANT DISTRICT ATTORNEYS
ATTORNEYS FOR PETITIONER
125-01 Queens Boulevard
Kew Gardens, New York 11415
718-286-5801
jmcastellano@queensda.org
June 25, 2019

i
QUESTION PRESENTED
Whether statements made by individuals during
routine police investigations – prior to the commission
of a specific crime, the identification of a suspect in
connection with that crime, or the filing of charges –
can be deemed testimonial under Crawford v.
Washington, 541 U.S. 36 (2004)?

ii
TABLE OF CONTENTS
QUESTION PRESENTED. . . . . . . . . . . . . . . . . . . . . i
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . iii
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED. . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE. . . . . . . . . . . . . . . . . . 1
REASONS FOR GRANTING THE WRIT. . . . . . . . . 5
CONCLUSION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

iii
TABLE OF AUTHORITIES
Cases
Bullcoming v. New Mexico,
564 U.S. 647 (2011). . . . . . . . . . . . . . . . . . 8, 13
Cady v. Dombrowski, 413 U.S. 433 (1973) . . . . . . . 21
Crawford v. Washington, 541 U.S. 36
(2004). . . . . . . . . . . . . . . . . . . . . . . . i, 6, 11, 14
Davis v. Washington, 547 U.S. 813 (2006). . . . . . . . . 7
Hacheney v. Obenland, 732 F. App'x 541
(9th Cir. 2018) . . . . . . . . . . . . . . . . . . . . . . . . 18
Melendez-Diaz v. Massachusetts, 557 U.S. 305
(2009). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Michigan v. Bryant, 562 U.S. 344
(2011). . . . . . . . . . . . . . . . . . . . . . . . 8, 9, 13, 17
Ohio v. Clark, __ U.S. __, 135 S. Ct. 2173
(2015). . . . . . . . . . . . . . . . . . . . . . 10, 12, 13, 17
People v. John, 27 N.Y.3d 294 (2016) . . . . . . . . . . . 18
People v. Jones, 166 A.D.3d 803
(N.Y. App. Div. 2018), appeal denied,
33 N.Y.3d 950 (2019). . . . . . . . . . . . . . . . . . 1, 5
People v. Meraz, 6 Cal. App. 5th 1162
(Ct. App. 2016). . . . . . . . . . . . . . . . . . . . . . . . 14
People v. Valadez, 220 Cal. App. 4th 16
(Ct. App. 2013) .. . . . . . . . . . . . . . . . . . . . . . . 15
Rosario v. State, 175 So. 3d 843
(Fla. Dist. Ct. App. 2015) . . . . . . . . . . . . . . . 19

iv
Saldana v. Peery, 2017 WL 633898, at *39
(E.D. Cal. 2017) . . . . . . . . . . . . . . . . . . . . . . . 14
State v. Guarino, 238 Ariz. 437,
362 P.3d 484 (2015) . . . . . . . . . . . . . . . . . . . . 16
State v. Navarette, 2013-NMSC-003,
¶ 18, 294 P.3d 435 (2013) . . . . . . . . . . . . . . . 19
State v. Prado, 185 Wash. App. 1017 (2015) . . . . . . 14
United States v. Barnes,
No. 213CR423JCMGWF,
2016 WL 1317724, at *3
(D. Nev. Apr. 1, 2016).. . . . . . . . . . . . . . . . . . 14
United States v. Garcia, 793 F.3d 1194
(10th Cir. 2015) . . . . . . . . . . . . . . . . . . . . . . . 15
United States v. Gomez, 725 F.3d 1121
(9th Cir. 2013) . . . . . . . . . . . . . . . . . . . . . . . . 15
United States v. Hadley, 431 F.3d 484
(6th Cir. 2005) . . . . . . . . . . . . . . . . . . . . . . . . 21
United States v. Jones, 447 F. App'x 319
(3d Cir. 2011) . . . . . . . . . . . . . . . . . . . . . . . . . 16
United States v. Lockhart, 844 F.3d 501
(5th Cir. 2016) . . . . . . . . . . . . . . . . . . . . . . . . . 14
United States v. Maher, 454 F.3d 13
(1st Cir. 2006) . . . . . . . . . . . . . . . . . . . . . . . . 16
United States v. Mejia, 545 F.3d 179
(2d Cir. 2008). . . . . . . . . . . . . . . . . . . . 5, 13, 16

United States v. Rios, 830 F.3d 403
(6th Cir. 2016) . . . . . . . . . . . . . . . . . . . . . . . . 15

v
Williams v. Illinois, 567 U.S. 50 (2012). . . . . . passim
Statute
28 U.S.C. § 1257. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Other Authorities
Jeffrey T. Richelson, The U.S. Intelligence
Community, p. 319 (7th ed. 2016). . . . . . . . . 19
Letteney, Peter J., Determining
Classified Evidence’s “Primary Purpose”:
The Confrontation Clause and
Classified Information After
Ohio v. Clark, 66 Duke Law Journal 1, 16
(2016) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

OPINIONS BELOW
The order of the New York State Supreme Court,
Appellate Division, Second Department, is reported at
People v. Jones, 166 A.D.3d 803 (N.Y. App. Div. 2018),
appeal denied, 33 N.Y.3d 950 (2019).
JURISDICTION
Petitioner invokes this Court's jurisdiction under
28 U.S.C. § 1257.
CONSTITUTIONAL AND
STATUTORY PROVISIONS INVOLVED
The Sixth Amendment provides in part that:
In all criminal prosecutions, the accused
shall enjoy the right . . . . to be confronted
with the witnesses against him.
STATEMENT OF THE CASE.
The SNOW Gang (acronym for “Swagga Niggas
Operate With”) originated in Rochdale Village, off of
130th Avenue and Bedell Street in Queens County, New
York. Members engaged in criminal activities such as
murders, shootings, robberies, and possession of
firearms and narcotics. They held meetings in
Rochdale Village and Montbellier Park, also located in
Queens County.
Around March and April of 2014, the SNOW
Gang’s main rival was the “Wood City” gang. Nicholas
Morris (“Flacca” or “Nick Flacca”) was a member of the
“Wood City” Gang, as was Leighton Friday (“Psycho”).
Lieutenant Robert Bracero was a sixteen-year
veteran of the NYPD, who had extensive experience
with gangs. In 2012, he was promoted to the rank of
sergeant in the newly-created Strategic Enforcement
Team (“SET”). “SET” was formed to combat “subsets
or crews that are more geographically driven,” and
which did not have the “traditional internal workings

2
of a regular gang.” Bracero’s “SET” team was assigned
to the 113th Precinct in Queens. Also assigned to the
team was Detective Adam Georg.
The information that Bracero and Georg
gathered about the SNOW Gang came from numerous
sources, including field observations; monitoring of
social media sources like Facebook; gang conferences;
jailhouse telephone calls; “conversations with
individuals in the neighborhood”; and debriefings of
gang members. The debriefings were not conducted
under circumstances suggesting the same level of
formality as testimony or a sworn statement. Rather,
Bracero testified that the debriefings were “fact-finding
interviews and discussions,” which he used to garner
general information about the SNOW Gang and other
gangs. During the debriefings, Bracero would maintain
a “casual” atmosphere (he would offer the interviewee
something to eat, drink and cigarettes, for example)
and would “maintain a level of empathy, extreme level
of cordialness with these particular individuals.” Via
these investigatory measures, Bracero was able to
learn details about the origin of the gang; leadership,
rank and structure; the names of the various members;
and about the specific crimes they committed (18a-32a,
75a-77a, 97a-98a).
Crucially, the proactive measures taken by
Bracero, Georg, and the other members of the New
York City Police Department assigned to the SET team
to investigate the SNOW Gang took place before the
crimes committed in this case; the arrest of Jones and
his co-defendants; and the filing of charges against
them.
Jones and his co-defendants (Trevor Lucas,
Dionne Milling, Justin Campbell, and Dane’e Cato)
were all members of the SNOW Gang, as was Kahlil
Bowlin, also known as “Red.” On March 30, 2014,
Bowlin was shot and killed. As a result, Jones and his
co-defendants conspired to murder “Wood City” gang
members Morris and Friday, who they held responsible

3
for Bowlin’s death. To this end, they held discussions
over Facebook which focused on locating rival gang
members, as well as obtaining guns and a car to carry
out the retaliatory killings.
Jones had expressed a desire to kill Morris
before the murder of Bowlin. And, during Facebook
conversations which took place both before and after
Bowlin’s death, Jones actively negotiated the purchase
of two firearms – one of which was a .22 caliber – and
discussed stealing a vehicle with other members of the
SNOW Gang. Jones also expressed a desire to retaliate
for the killing of Bowlin.
The New York City Police Department was
aware that Bowlin’s murder might lead the SNOW
Gang to retaliate, so they monitored their Facebook
postings. Their surveillance revealed that the SNOW
Gang planned to gather at their usual meeting place –
Montbellier Park in Jamaica, Queens – and the police
converged on that location. When they arrived, they
spotted many gang members, including Jones. Jones
fled the park, but was apprehended. The police
recovered a loaded, .22 caliber firearm from SNOW
gang member Sean Chung. Three other gang members
were apprehended after fleeing from a stolen car.
For these acts, Jones and his co-defendants were
charged with Conspiracy in the First and Second
Degrees and related charges.
At trial, much of the evidence against Jones and
his co-defendants came from their Facebook postings,
in which they discussed their plans for revenge.
Bracero and Georg interpreted the postings, which
contained gang terminology.
The trial record indicates that any debriefings of
gang members occurred before Jones and his codefendants were identified as suspects. Bracero
testified that any debriefings he conducted usually took
place at the 113th Precinct in Queens; that he was

4
transferred to the 19th precinct in Manhattan in early
March, 2014, prior to the murder of Bowlin; and that
he was not involved with the investigation conducted
in this case (63a, 64a, 65a, 82a). Plainly, these
undisputed facts indicate that Bracero did not conduct
any debriefings with respect to the SNOW Gang
following the murder of Bowlin, since Bracero testified
that all of the debriefings he conducted usually took
place at the 113th Precinct, and he was no longer
assigned to that command, much less the borough of
Queens, on the day of Bowlin’s murder. Indeed,
Bracero specifically testified that “this particular
conspiracy had not yet occurred” (60a) at the time he
was working in Queens. Moreover, since Bracero was
not involved in the investigation, he could not have
performed any role in gathering evidence with an eye
towards prosecuting Jones.
The same can be said for Georg, who testified
that his career as a gang investigator began in October
2012, and that, during the period of time leading up to
March 2014 (the month in which Bowlin was killed), he
performed various duties, which included debriefings
of gang members (102a, 103a, 107a, 118a, 119a). The
record contains no indication that any debriefings
significant to this case, or to Georg’s review of the
Facebook records, took place after Jones and his codefendants were identified and/or charged.
Jones was convicted of Conspiracy in the Second
Degree (two counts), False Personation, and Unlawful
Assembly.
He was sentenced to concurrent,
indeterminate terms of from 8 1/3 to 25 years’
imprisonment for the conspiracy convictions, as well as
concurrent, 90-day terms for False Personation and
Unlawful Assembly.1

1

Milling was acquitted of all charges. Cato, Campbell and
Lucas were each convicted of second-degree conspiracy, and
Campbell was additionally convicted of Criminal Possession of
Stolen Property in the Fourth Degree, Unauthorized Use of a

5
In a decision dated November 14, 2018, the state
appellate court reversed Jones’ conviction and found
that the testimony of the gang experts violated the
Confrontation Clause. The court stated, “Here,
contrary to the People's contention, information
derived from the debriefing of arrested S.N.O.W. Gang
members constitutes testimonial statements within the
meaning of Crawford.” The Court then found that “the
substance of such statements was impermissibly
conveyed to the jury by Georg and/or Bracero in the
guise of expert testimony.” People v. Jones, 166 A.D.3d
803 (2d Dept. 2018) (citing United States v. Mejia, 545
F.3d 179, 198 [2d Cir. 2008]).
REASONS FOR GRANTING THE WRIT
The state court created a rule that imperils all
gang and terrorism prosecutions and is entirely at odds
with this Court’s Crawford jurisprudence. Specifically,
the state court held, without any explanation, that
“information derived from the debriefing of arrested .
. . . . [g]ang members constitutes testimonial
statements within the meaning of Crawford,”
essentially precluding critical gang expert testimony
routinely used in all state and federal courts to provide
essential background information on gang structure,
hierarchy, and operations. This contravenes Crawford
and its progeny, in which this Court made it
abundantly clear that testimonial statements are
statements made for the “primary purpose” of
providing evidence against an accused in a criminal
proceeding. Statements gathered during routine police
investigations, prior to the commission of a crime
and/or the identification of one or more perpetrators,
however, are not made with the “primary purpose” of
obtaining “evidence for use against [a] petitioner . . . .

Vehicle, and Unlawful Assembly. Lucas’ conviction was reversed
by the state appellate court on the ground that the evidence was
not legally sufficient to sustain his conviction. Cato and
Campbell’s cases are awaiting decision on appeal.

6
neither in custody nor under suspicion at th[e] time.”
See Williams v. Illinois, 567 U.S. 50, 84 (2012). Indeed,
here, the statements gathered had the “primary
purpose” of crime prevention, and investigating the
inner workings of a gang, rather than collecting
evidence for later use in court to prosecute one or more
gang members for a specific crime.
This Court’s precedent demonstrates the clearly
defined dichotomy between testimonial and nontestimonial statements. For example, the statements
considered in Crawford were testimonial because they
were made “while in police custody,” and by a person
“herself a potential suspect in the case,” who was told
by the police “that whether she would be released
‘depend[ed] on how the investigation continues.’” She
then “implicated her husband in [a] stabbing and at
least arguably undermined his self-defense claim.”
Crawford, 541 U.S. at 65.
In so holding, this Court in Crawford explained
that “the principal evil at which the Confrontation
Clause was directed was the civil-law mode of criminal
procedure, and particularly its use of ex parte
examinations as evidence against the accused.”
Crawford, 541 U.S. at 50. One “notorious” example of
the latter, as Crawford pointed out, was the evidence
presented at the treason trial of Sir Walter Raleigh.
“Lord Cobham, Raleigh's alleged accomplice, had
implicated him in an examination before the Privy
Council and in a letter. At Raleigh's trial, these were
read to the jury. Raleigh argued that Cobham had lied
to save himself . . . . Suspecting that Cobham would
recant, Raleigh demanded that the judges call him to
appear, arguing that ‘[t]he Proof of the Common Law
is by witness and jury: let Cobham be here, let him
speak it. Call my accuser before my face . . . .’” Id. at
44.
Much like the statements in Crawford, Lord
Cobham’s statements pointed to an individual
(Raleigh) and implicated him in the commission of a

7
specified offense (treason). The primary – indeed, the
only – purpose of such statements was to provide
evidence of guilt, much like a witness would do at trial.
Hence, the need to subject the maker of the statements
to cross-examination was paramount.
By contrast, in Davis v. Washington, 547 U.S.
813 (2006), this Court rejected a claim that statements
made during a 911 call, describing an ongoing
emergency, qualified as testimonial. In doing so, this
Court articulated a further explanation of the
differences between testimonial and nontestimonial
statements:
Statements are nontestimonial when
made in the course of police interrogation
under circumstances objectively
indicating that the primary purpose of
the interrogation is to enable police
assistance to meet an ongoing emergency.
They are testimonial when the
circumstances objectively indicate that
there is no such ongoing emergency, and
that the primary purpose of the
interrogation is to establish or prove past
events potentially relevant to later
criminal prosecution
Davis, 547 U.S. at 822. Thus, when this Court in
Crawford stated that “‘interrogations by law
enforcement officers fall squarely within [the] class’ of
testimonial hearsay,” this statement referred to
“interrogations solely directed at” – in other words,
with the “primary purpose” of – “establishing the facts
of a past crime, in order to identify (or provide evidence
to convict) the perpetrator.” Davis, 547 U.S. at 826.
The statements in Davis did not fit within this
construct because, among other reasons, “No ‘witness'
goes into court to proclaim an emergency and seek
help.” Id. at 828.

8
Consistently, in Melendez-Diaz v. Massachusetts,
557 U.S. 305 (2009), this Court held that “affidavits
reporting the results of forensic analysis which showed
that material seized by the police and connected to the
defendant was cocaine” were testimonial. In reaching
this holding, this Court noted that “under
Massachusetts law the sole purpose of the affidavits
was to provide ‘prima facie evidence of the composition,
quality, and the net weight’ of the analyzed substance.”
Id. at 311 (italics in original). In Bullcoming v. New
Mexico, 564 U.S. 647 (2011), this Court deemed
laboratory reports testimonial, and reiterated that a
“document created solely for an ‘evidentiary purpose’ .
. . . made in aid of a police investigation, ranks as
testimonial.” Id (italics added). In other words, the
affidavits and reports in Melendez-Diaz and
Bullcoming, much like the statements in Crawford,
and unlike the statements in Davis, were made for the
“primary purpose” of providing evidence against a
known suspect, in connection with a crime that had
already been committed
Davis demonstrated that even direct accusations
made in connection with a known crime – despite their
surface resemblance to trial testimony – are not per se
testimonial. This concept was further clarified in
Michigan v. Bryant, 562 U.S. 344 (2011). In Bryant, the
statements at issue were made to officers responding
to a shooting. The victim told them that an individual
named “Rick” had shot him at his home. Despite the
incriminating nature of this statement, this Court held
that the statement was not testimonial. This Court
emphasized that “the most important instances in
which the [Confrontation] Clause restricts the
introduction of out-of-court statements are those in
which state actors are involved in a formal, out-of-court
interrogation of a witness to obtain evidence for trial.”
Bryant, 562 U.S. at 358. Further, this Court stressed
that “the relevant inquiry is not the subjective or
actual purpose of the individuals involved in a
particular encounter, but rather the purpose that
reasonable participants would have had, as ascertained

9
from the individuals' statements and actions and the
circumstances in which the encounter occurred.”
Bryant, 562 U.S. at 360. Judged by these criteria, this
Court determined that the statements in Bryant were
non-testimonial because they were elicited to address
an ongoing emergency, and made by a mortally
wounded individual.
Then, in Williams v. Illinois, 567 U.S. 50 (2012),
this Court reached a critical juncture in its Crawford
jurisprudence and drew another dividing line between
testimonial and non-testimonial statements.
Specifically, this Court found that, even if a report
outlining the results of DNA testing had been admitted
for its truth, there was no violation of the
Confrontation Clause:
The abuses that the Court has identified
as prompting the adoption of the
Confrontation Clause shared the
following two characteristics: (a) they
involved out-of-court statements having
the primary purpose of accusing a
targeted individual of engaging in
criminal conduct and (b) they involved
formalized statements such as affidavits,
depositions, prior testimony, or
confessions.
Here, the primary purpose of the
Cellmark report, viewed objectively, was
not to accuse petitioner or to create
evidence for use at trial. When the ISP
lab sent the sample to Cellmark, its
primary purpose was to catch a
dangerous rapist who was still at large,
not to obtain evidence for use against
petitioner, who was neither in custody nor
under suspicion at that time. Similarly,
no one at Cellmark could have possibly
known that the profile that it produced
would turn out to inculpate petitioner—or

10
for that matter, anyone else whose DNA
profile was in a law enforcement
database. Under these circumstances,
there was no “prospect of fabrication” and
no incentive to produce anything other
than a scientifically sound and reliable
profile.
Williams, 567 U.S. at 82, 84–85 (italics added).
Williams thus set forth what was already
apparent from every prior case decided by this Court,
starting with Crawford: a statement cannot be
testimonial unless it has the purpose of supplying
evidence against a specific person for a specific crime.
Since Williams was not yet identified at the time of the
DNA testing, therefore, the testing which led to his
identification was not testimonial.
In this Court’s latest decision regarding
testimonial hearsay, this Court again reinforced that
not all statements, even if accusatory, qualify as
testimonial. In Ohio v. Clark, __ U.S. __, 135 S. Ct.
2173 (2015), a child was questioned by a preschool
teacher regarding injuries on the child’s body. The
questioning elicited that the injuries were caused by
the child’s stepfather. This Court ruled that there was
“no indication that the primary purpose of the
conversation was to gather evidence for Clark's
prosecution,” and that it was “clear that the first
objective was to protect” the victim. Further, this Court
underscored that “[a]t no point did the teachers inform
[the victim] that his answers would be used to arrest or
punish his abuser,” and that the victim “never hinted
that he intended his statements to be used by the
police or prosecutors.” In addition, this Court noted
that “the circumstances in this case were unlike the
interrogation in Hammon [companion case to Davis],
where the police knew the identity of the assailant and
questioned the victim after shielding her from
potential harm.” Clark, __ U.S. __, 135 S.Ct. at 218081. This Court further explained that “the primary

11
purpose test is a necessary, but not always sufficient,
condition for the exclusion of out-of-court statements
under the Confrontation Clause.” Id. at 2180-81.
The common thread in all the cases cited above
is clear: the Confrontation Clause applies to
incriminatory statements which are gathered for the
purpose of supplying evidence against a known
suspect, in connection with a specific crime, and
statements which are formalized, such as affidavits,
depositions, prior testimony, or confessions. And, in
addition, these cases make it plain that even
statements which implicate one or more individuals in
a crime may not be testimonial.
Here, none of these considerations are present.
The shooting had not occurred at the time Bracero and
Georg conducted the debriefings. Simply put, there was
no case, no suspect and, therefore, no statement
designed to provide evidence against an individual in
connection with the death of Bowlin. Nor is there any
indication that any statement gathered during the
debriefings was “inherently inculpatory.” Williams,
567 U.S. at 58. Further, even if Georg gathered
evidence through debriefings which implicated Jones
in the plot to murder Morris and Friday, no such
statements were ever conveyed to the jury. Nor could
Bracero have conveyed any such statements, as he was
not even involved in the investigation which led to the
charges in this case.
No case decided by this Court has extended
Crawford to statements such as the ones which led to
reversal in this case. Indeed, Crawford found
statements made in formation of, or during the course
of, a conspiracy, to be non-testimonial. Crawford, 541
U.S. at 56. It would seem, therefore, that a statement
made before there was ever a conspiracy – such as the
statements made in this case during the debriefings –
would, a fortiori, also qualify as non-testimonial.

12
Nor can Crawford be logically extended to
encompass Bracero and Georg’s conversations with
SNOW Gang members. Unlike the questioning in
Crawford and Sir Raleigh’s case, Bracero testified that
debriefings are not normally used to gather evidence
about a specific crime.2 He also testified that during
these debriefings, he would “try to find out who these
people were on a more casual level to be able to speak
to them.” He further testified that, in conducting
debriefings, he would “maintain a level of empathy,
extreme level of cordialness with these particular
individuals,” and that “[s]ome just spoke because they
didn't want to be stuck with a stinky perpetrator that
was in the holding cell with them.” In this regard,
agreeing to speak with Bracero provided the
interviewee with “an opportunity for them to perhaps
have a bite, have a cigarette and to just talk to a
person” (75a-77a, 97a-98a).
Viewed in light of the record, the “primary
purpose” of the statements was not to create a
substitute for in-court testimony, and Bracero and
Georg’s “primary purpose” was to learn about the
SNOW Gang, not to collect information against Jones
in connection with the conspiracy to kill Morris and
Friday. Indeed, doing so would have been impossible
given that there was no conspiracy at the time Bracero
conducted the debriefings. And, in addition, there is no
indication that the individuals debriefed were told that
their statements would be used to “arrest or punish,”
or that these individuals “hinted that [t]he[y] intended

2

While Bracero also agreed that it was “fair to say” that during
the debriefings, he was “also looking to get information to be used
against that particular arrestee in that case” (97a, 98a), there is
no indication in the record, and no basis to conclude, that Jones or
his co-defendants were any of the individuals debriefed by
Bracero, and the record contains no indication that Bracero
interviewed anyone with the “primary purpose” of seeking
evidence against Jones and his co-defendants. In fact, Bracero
specifically testified that he did not debrief Jones or his codefendants (57a, 60a).

13
[their] statements to be used [as evidence] by the police
or prosecutors.” Clark, __ U.S. __, 135 S.Ct. at 2180-81.
Rather, according to Bracero’s description, the
individuals he debriefed spoke with him because it
allowed them to leave the unpleasant atmosphere of a
holding cell and enter a more relaxing environment,
where they would “have a bite, have a cigarette and .
. . . just talk to a person.”
This Court has never extended Crawford to the
scenario presented by this case. In every past case
manifesting testimonial hearsay, one or both of the
following factors were inevitably present: a specific
crime, and a specific individual facing charges, at the
time the contested statements were made. Here, by
contrast, there was no crime(s), charge(s), or
individual(s) charged, when the debriefings were
conducted. Hence, viewed objectively, the statements
made during the debriefings fit within no definition of
“testimonial” propounded by this Court.
Instead of employing the dispositive, primary
purpose test set forth by this Court in Davis and its
progeny, the state court cited to United States v. Mejia,
545 F3d 179, 198 (2d Cir. 2008), and held, “Contrary to
the People’s contention, information derived from the
debriefing of arrested S.N.O.W. Gang members
constitutes testimonial statements within the meaning
of Crawford.” Mejia, however, was decided eleven years
ago, in 2008. Since then, the law surrounding
testimonial hearsay has undergone a sea change, and
the “primary purpose” test has developed significantly.
See, e.g., Clark, __ U.S. __, 135 S.Ct. at 2173;
Williams, 567 U.S. at 50; Bullcoming, 564 U.S. at 647;
Bryant, 562 U.S. at 344. Indeed, Mejia does not
reference the “primary purpose” test at all. Thus, its
vitality as precedent is questionable, particularly in
light of this Court’s decision in Davis, et al.
The failure of the Second Circuit decision in
Mejia to mention the “primary purpose” test is also
significant because other state and federal courts since

14
Mejia have concluded – consistent with the “primary
purpose” test discussed by this Court in Davis – that
statements made during interviews which take place
prior to a particular investigation and prosecution
targeting one or more specific individuals do not
amount to testimonial hearsay. See, e.g., United States
v. Lockhart, 844 F.3d 501 (5th Cir. 2016) (“The
interrogations and conferences Officer Ontiveros
attended were part of his education as a gang expert,
and he properly based his testimony on these
experiences. Therefore, Officer Ontiveros did not serve
as a conduit for inadmissible testimonial hearsay.”);
Saldana v. Peery, 2017 WL 633898, at *39 (E.D. Cal.
2017) (oral statements of gang members relied upon by
gang expert “could not be considered testimonial in
nature, because they bore no resemblance to
formalized statements such as affidavits, depositions,
prior testimony, or confessions . . . . Thus, the
statements relied upon by the gang expert did not
violate the Confrontation Clause.”); United States v.
Barnes, No. 213CR423JCMGWF, 2016 WL 1317724, at
*3 (D. Nev. Apr. 1, 2016) (rejecting argument “that
Detective Petrulli's reliance on interviews with pimps
and prostitutes as the basis for his expertise
constitutes the transmission of inadmissible hearsay in
violation of the Confrontation Clause under Crawford
v. Washington, 541 U.S. 36 (2004)), aff'd, 738 F. App'x
413 (9th Cir. 2018); People v. Meraz, 6 Cal. App. 5th
1162, 1175 (Ct. App. 2016) (testimony about gang
“operations, primary activities, and pattern of criminal
activities” was not testimonial, even though expert
“received the ‘majority of [his] intelligence’ by
‘speak[ing] with gang members of all levels and ages,
both in and out of custody’”; “‘[d]ay in and day out such
information would be useful to the police as part of
their general community policing responsibilities quite
separate from any use in some unspecified criminal
prosecution,’” and to “conclude otherwise would
eviscerate the role of gang experts in gang-related
prosecutions”); State v. Prado, 185 Wash. App. 1017
(2015) (rejecting argument that “testimony on matters
that could have come only from informants or custodial

15
interrogations from absent witnesses, including
Detective Salinas's remark that gang members gain
respect by injuring or shooting rival gang members”
violated the Confrontation Clause); People v. Valadez,
220 Cal. App. 4th 16, 36 (Ct. App. 2013) (“nothing in
the circumstances of Officer's Krish's interactions with
gang members and other officers objectively indicates
the primary purpose of Officer Krish's questioning was
to target appellants or any other individuals or crimes
for investigation or to establish past facts for a later
criminal prosecution”).
By contrast, some courts have apparently found
the opposite: that statements made during
investigative interviews, conducted prior to the
occurrence of a specific crime or the identification of a
suspect, are testimonial, or at least potentially so. See,
e.g., United States v. Rios, 830 F.3d 403, 419 (6th Cir.
2016) (“The sole testimony cited by the defendants that
may have [violated the Confrontation Clause] was
Detective Haglund's relaying of the ‘beating-out
process’ based upon interviewing Latin Kings about it.
He was asked whether he had interviewed someone
who went through the process and then explained: ‘He
was taken to a different location from where they were
at originally and was beaten by several Latin Kings
throughout the face, the body, and suffered injuries.’ .
. . . This implied directly that a specific individual told
Detective Haglund about a specific event, and that
Detective Haglund's account of what occurred was
based upon this individual's statement. This testimony
violated the Confrontation Clause, but the violation
was harmless because Mario Herrera testified about
the severity of the same process.”); United States v.
Garcia, 793 F.3d 1194, 1214 (10th Cir. 2015) (gang
expert “indicated that the source of his information
was investigative interviews,” which led to statements
that were testimonial); United States v. Gomez, 725
F.3d 1121, 1130 (9th Cir. 2013) (addressing
Confrontation Clause challenge to testimony of DEA
drug trafficking expert: “The wording of the second
question is potentially problematic: ‘And in those

16
interviews [by Agent Banos with individuals who have
smuggled drugs for payment], is the payment
relatively small in comparison to the value of the
narcotics being smuggled?’ . . . . The question could be
understood to query the content of Agent Banos'
previous interviews, which would violate the
Confrontation Clause.”); United States v. Maher, 454
F.3d 13, 21 (1st Cir. 2006) (statement made by
defendant in custody naming another individual as the
source of drugs deemed testimonial, even though this
individual was not a target at the time he was named).
Perhaps reflecting added confusion over the
exact nature of such statements, other courts have
simply refused to reach this issue. See United States v.
Jones, 447 F. App'x 319, 324 (3d Cir. 2011) (“In
resolving Jones's Confrontation Clause challenge, we
decline to reach whether the arrestees' statements
were testimonial or whether Crawford is implicated by
McNamara's remarks in the first place, given that
McNamara only referred to the interviews to situate
his expert opinion.”); State v. Guarino, 238 Ariz. 437,
444, 362 P.3d 484, 491 (2015) (finding gang expert
testimony admissible without addressing the
underlying question of whether the sources relied
upon, including statements from gang members, were
testimonial). This indicates that courts from across the
United States are divided – or at the very least lack
sufficient guidance – over whether statements,
gathered prior to a particular crime, or the targeting of
a particular suspect, are testimonial, thus requiring
this Court’s intervention to resolve the issue.
The Mejia court apparently emphasized a single
factor – whether the gang expert gathered information
during the course of “custodial interrogations” – in
determining whether the interviews in that case
produced testimonial hearsay. See Mejia, 545 F.3d at
199 (“Alicea's reliance on hearsay is beyond doubt; a
more difficult question is the extent to which that
hearsay took the form of custodial statements and was
thus testimonial.”). But since Mejia, this Court has

17
made it clear that “not all those questioned by the
police are witnesses and not all interrogations by law
enforcement officers are subject to the Confrontation
Clause.” Bryant, 562 U.S. at 355. And, even more
recently, this Court has reiterated that courts should
consider “‘the informality of the situation and the
interrogation’ . . . . in evaluating whether a statement
is testimonial.” Clark, __ U.S. __, 135 S.Ct. at 2180
(2015), (quoting Bryant, 562 U.S. at 377).
“While ‘formal station-house interrogation,’ like
the questioning in Crawford, is more likely to provoke
testimonial statements, [and] while less formal
questioning is less likely to reflect a primary purpose
aimed at obtaining testimonial evidence against the
accused . . . the question is whether, in light of all the
circumstances, viewed objectively, the ‘primary
purpose’ of the conversation was to ‘creat[e] an
out-of-court substitute for trial testimony.’” Clark, __
U.S. __, 135 S.Ct. 2173, 2180 (2015) (quoting Bryant,
562 U.S. at 366, 377). The state court, however, gave
no indication that it considered the circumstances
surrounding the debriefings – or did so in conjunction
with this Court’s decisions in Clark and Bryant –
before deciding that the statements they produced
were testimonial.
The need for review is pressing for another
reason. Williams was a plurality opinion: four Justices
of this Court agreed that a specific case and/or a
targeted individual are necessary for a statement to be
deemed testimonial, and another four Justices reached
the opposite conclusion, with one Justice concurring in
the judgement, yet rejecting the notion that a targeting
test is essential to determining whether a statement is
testimonial or not. Compare Williams, 567 U.S. at 82
(opinion by Justice Alito, and joined by Justices
Roberts, Kennedy and Breyer) (“The abuses that the
Court has identified as prompting the adoption of the
Confrontation Clause . . . involved out-of-court
statements having the primary purpose of accusing a
targeted individual of engaging in criminal conduct”),

18
and Williams, 567 U.S. at 97 (Breyer, J. concurring)
(“As the plurality notes, in every post-Crawford case in
which the Court has found a Confrontation Clause
violation, the statement at issue had the primary
purpose of accusing a targeted individual . . . . The
declarant was essentially an adverse witness making
an accusatory, testimonial statement—implicating the
core concerns of the Lord Cobham-type affidavits. But
here the DNA report sought, not to accuse petitioner,
but instead to generate objectively a profile of a
then-unknown suspect's DNA from the semen he left in
committing the crime.”), with Williams, 567 U.S. at
114 (Thomas, J. concurring in the judgement) (“The
shortcomings of the original primary purpose test pale
in comparison, however, to those plaguing the
reformulated version that the plurality suggests today.
The new primary purpose test asks whether an
out-of-court statement has ‘the primary purpose of
accusing a targeted individual of engaging in criminal
conduct.’ . . . . That test lacks any grounding in
constitutional text, in history, or in logic.”), and
Williams, 567 U.S. at 135 (Kagan, J. dissenting, and
joined by Justices Scalia, Ginsburg and Sotomayor)
(“As its first stab, the plurality states that the
Cellmark report was ‘not prepared for the primary
purpose of accusing a targeted individual.’ . . . . Where
that test comes from is anyone's guess. Justice
THOMAS rightly shows that it derives neither from
the text nor from the history of the Confrontation
Clause.”).
The plurality opinion in Williams has led to
confusion among various courts from around the
United States, and has caused them to reach divergent
conclusions regarding whether a writing or statement
made before a suspect or target is identified qualifies
as testimonial. See, e.g. Hacheney v. Obenland, 732 F.
App'x 541, 543 (9th Cir. 2018) (“Hacheney was not a
target of investigation when the toxicology report was
prepared. The state court therefore did not
unreasonably apply clearly established law by denying
Hacheney’s Confrontation Clause claim”); People v.

19
John, 27 N.Y.3d 294, 310 (2016) (DNA profiles
generated “when the suspect was unknown and the
defendant was later identified on a ‘cold hit’” are not
testimonial); Rosario v. State, 175 So. 3d 843, 858 (Fla.
Dist. Ct. App. 2015) (autopsy report deemed
testimonial); State v. Navarette, 2013-NMSC-003, ¶ 18,
294 P.3d 435, 441 (2013) (“it does not matter that the
autopsy report does not target a specific person or that
the autopsy report does not produce inherently
inculpatory evidence . . . . The observations, findings,
and opinions within the report are statements that
were made when the pathologist understood that the
statements might be used in a criminal prosecution.”).
As is plain, review of the issue here will not only
resolve whether investigatory interviews – conducted
before a suspect or suspects is identified, or a crime is
committed – produce testimonial hearsay, but will also
address the unresolved issue left open by Williams:
whether any hearsay statement generated prior to the
identification of a suspect, or the filing of formal
charges, should be considered testimonial under this
Court’s Crawford jurisprudence. This issue has
continued to lead to fractured conclusions among state
and federal courts, thus providing this Court with
ample cause to address the issue.
Reviewing the instant case will allow this Court
to address additional issues that resonate on a
nationwide level. Intelligence gathering is a critical
component of all law enforcement, whether on a city,
state, federal, or international level. See generally
Letteney, Peter J., Determining Classified Evidence’s
“Primary Purpose”: The Confrontation Clause and
Classified Information After Ohio v. Clark, 66 Duke
Law Journal 1, 16 (2016) (human intelligence
(HUMINT) “may be the only way of getting access to
certain information held by an intelligence target, and
therefore can be of enormous value . . . . . both for its
intelligence value, and for its prosecutorial value.”)
(citing Jeffrey T. Richelson, The U.S. Intelligence
Community, p. 319 [7th ed. 2016]). It is perhaps one of

20
the most important functions performed by police and
other investigatory agencies, as it allows them to
proactively address potential criminality, as well as
terroristic threats, before they ever occur. See
Letteney, 66 Duke Law Journal at 16 (studies “in 1994
found that HUMINT made a critical contribution to
204 of 376 specific intelligence issues.”) (citing
Richelson, p. 319). Indeed, intelligence gathering saves
lives, and this case is proof: without it, both Morris and
Friday would, no doubt, have been killed by defendant
and his SNOW Gang cohorts. Only the collective
knowledge of the SNOW Gang gathered by Bracero
and Georg, and the swift actions of the latter and other
dedicated NYPD officers, prevented a conspiracy case
from becoming a multiple murder case. And, apart
from the two specific targets, the danger for additional
bloodshed cannot be ignored, as any civilians caught in
the crossfire of these two, warring gangs could have
been shot and slain as well. Plainly, intelligence
gathering allows law enforcement to do what is
necessary to either prevent criminal behavior entirely,
or hinder its ability to wreak further terror.
The entire proactive function of law enforcement
– determining whether behavior is criminal, observing
patterns and activity, investigating individuals and
enterprises – must be accounted for before determining
that statements are “testimonial.” Here, however, the
state court conflated the proactive function of law
enforcement with its reactive function, that is,
responding to crimes once they have already occurred
and gathering evidence with an eye towards arresting
and prosecuting a specific perpetrator. This error led
the state court to commit the further error of
concluding that the proactive steps taken to learn
about the SNOW Gang, prior to the commission of the
crime in this case, were tantamount to an interrogation
of a witness for the purpose of incriminating a person
suspected of a particular crime. Given the widespread
use of intelligence gathering and proactive,
preventative measures taken to interdict criminal and
terroristic activity, and the prevalent use of statements

21
gathered during such activity, it is imperative that this
Court provide guidance as to how and when such
statements may be used at trial.
It is also important to note that the very nature
of proactive policing – such as the policing done in this
case – can have more than one outcome. Obviously,
investigations into one or more individuals may lead
to the discovery of criminal or terroristic behavior. Or,
obviously, they may not, that is, the police may
uncover no evidence of criminal behavior at all. Viewed
in this objective light, proactive policing – undertaken
to assess whether criminality is even afoot – simply
cannot have a primary purpose of creating a substitute
for trial testimony, because the sole purpose of such
policing is to determine whether criminality exists, not
to prove it beyond a reasonable doubt before a trier of
fact with a statement or writing. This distinction was
overlooked by the state court in this case, and
apparently, courts from across the United States have
overlooked it as well. At the very least, there exists a
grave and reasonable concern that this critical
distinction will continue to be ignored unless this
Court confronts and addresses it.
The state court’s ruling also creates confusion
when it comes to other functions performed by the
police which do not involve investigations of a criminal
nature. See, e.g., Cady v. Dombrowski, 413 U.S. 433,
441 (1973) (“Local police officers, unlike federal
officers, frequently investigate” incidents “in which
there is no claim of criminal liability and engage in
what, for want of a better term, may be described as
community caretaking functions, totally divorced from
the detection, investigation, or acquisition of evidence
relating to the violation of a criminal statute.”). In the
performance of “community caretaking functions” –
which are undertaken countless times across the
United States by law enforcement officers – the police
may stumble across information which leads to
evidence of criminality. See, e.g., United States v.
Hadley, 431 F.3d 484, 502 (6th Cir. 2005) (police

22
arrived at home in response to 911 call, and their
purpose was to “ascertain the nature of the assault or
domestic disturbance reported by the 911 dispatcher,”
which the court analogized to a “community
caretaking” function; in the course of doing so, an
occupant of the home “volunteered the statements that
‘he has a gun’ and ‘he's going to kill me’ as she ran out
of her home upon the officers’ arrival, and before they
could even begin to question her about the evening's
events”). Yet at the time the information is discovered,
the police are not looking for any suspect, or even any
crime. This begs the obvious question: are statements
taken at this pre-crime, pre-suspect, pre-investigatory,
“community caretaking” phase testimonial? The state
court decision here answers that question in the
affirmative; Williams signals disagreement over
whether a targeted individual is a necessary condition
for deeming a statement testimonial, even though this
approach is consistent with Crawford and its progeny;
and various state and federal court decisions suggest
that this issue could engender disagreement. Hence,
whether statements become testimonial when they are
acquired by the police in the course of performing
“community caretaking” functions is another area of
the law which would be clarified should this Court
decide to review the instant case.
Further review is also necessary to clarify the
proper boundaries of Crawford when it comes to expert
testimony and gang prosecutions given the prevalence
of gang violence and the challenges that prosecutors
face in addressing the epidemic. There are
approximately 33,000 violent gangs in the United
S
t
a
t
e
s
.
S
e
e
https://www.fbi.gov/investigate/violent-crime/gangs.
One study concluded that, “Gangs are responsible for
an average of 48 percent of violent crime in most
jurisdictions and up to 90 percent in several others . .
. .” See NAT’L GANG INTELLIGENCE CTR., 2011
NATIONAL GANG THREAT ASSESSMENT:
EMERGING
TRENDS
9(2011),
https://www.fbi.gov/stats-services/publications/2011-

23
national-gang-threat-assessment. And, as the instant
case and others demonstrate, it is beyond cavil that
gang investigations and prosecutions, to one extent or
another, depend on the ability of law enforcement to
learn the vernacular used by gang members to
communicate with one another, and to communicate
this knowledge to a jury.
But by effectively declaring that all such
interviews are testimonial, no matter their timing or
the circumstances under which they occur, the state
court has made reliance upon a gang expert at trial
incredibly difficult, if not impossible. Indeed, such
reliance will ultimately lead the defense to decry any
such testimony as little more than testimonial hearsay
in the guise of an expert opinion, even if, as in this
case, it is clear that the expert opinions were not based
upon hearsay alone. And, the state court’s decision will
affect any expert testimony which has a connection, no
matter how great or small, to a conversation, including
testimony which is interpretive in nature, or
nonhearsay, background testimony.
In sum, for all of the forgoing reasons, this Court
should grant the instant petition.

24
CONCLUSION
The petition should be granted.

Respectfully submitted,

JOHN M. RYAN
Acting District Attorney,
Queens County
*JOHN M. CASTELLANO
ROBERT J. MASTERS
JOSEPH N. FERDENZI
CHRISTOPHER BLIRA-KOESSLER
Assistant District Attorneys
* Counsel of Record for the
Petitioner
BIJAN TORABI
Student Law Intern
June 24, 2019

APPENDIX

State of New York
Court of Appeals
BEFORE: HON. MICHAEL J. GARCIA
Associate Judge
_____________________________________________
THE PEOPLE OF THE STATE OF NEW YORK
Appellant,
-againstJAHMARLEY JONES,
Respondent
____________________________________________
ORDER DENYING LEAVE
Appellant having applied for leave to appeal to
this Court pursuant to Criminal Procedure Law §
460.20 from an order in the above-captioned case;1
UPON the papers filed and due deliberation, it
is
ORDERED that the application is denied.
Dated:

March 27, 2019
at Albany, New York
________________________
Associate Judge

1

Description of Order: Order of the Supreme Court, Appellate
Division, Second Department, entered November 14, 2018,
reversing a judgment of Supreme Court, Queens County, rendered
February 18, 2016.

2a
166 A.D.3d 803
Supreme Court, Appellate Division,
Second Department, New York.
The PEOPLE, etc., respondent,
v.
Jahmarley JONES, appellant.
2016–02147(Ind. No. 1659/14)
Argued—February 15, 2018November 14, 2018
Synopsis
Background: Defendant was convicted, following jury
trial, in the Supreme Court, Queens County, Robert C.
Kohm, J., of conspiracy in the second degree, false
personation, and unlawful assembly. Defendant
appealed.
Holdings: The Supreme Court, Appellate Division, held
that: detective conveyed to jury, for the truth of the
matter asserted, the substance of testimonial
statements, in the guise of expert testimony; detective
acted as summation witness; and order for new trial
was appropriate.
Reversed; new trial ordered.
West Headnotes (Expand West Headnotes
Attorneys and Law Firms
Randall D. Unger, Bayside, NY, for appellant.
Richard A. Brown, District Attorney, Kew Gardens,
N.Y. (John M. Castellano Johnnette Traill, Joseph N.
Ferdenzi, Bronx, and Christopher J. Blira–Koessler of
counsel), for respondent.

3a
REINALDO E. RIVERA, J.P., CHERYL E.
CHAMBERS, SHERI S. ROMAN, ANGELA G.
IANNACCI, JJ.
DECISION & ORDER
Appeal by the defendant from a judgment of the
Supreme Court, Queens County (Robert C. Kohm, J.),
rendered February 18, 2016, convicting him of
conspiracy in the second degree (two counts), false
personation, and unlawful assembly, upon a jury
verdict, and imposing sentence.
ORDERED that the judgment is reversed, on the law
and in the exercise of discretion, and a new trial is
ordered.
The defendant and four others, all alleged members of
the S.N.O.W. Gang, were tried together in connection
with an indictment charging them, inter alia, with
conspiracy to murder two members of a rival gang. At
the joint trial, no alleged coconspirators testified for
the prosecution. Instead, the People, among other
things, presented testimony from police officers
involved in the investigation and introduced into
evidence thousands of social media posts of the
defendants and numerous charged and uncharged
coconspirators. The jury acquitted the defendant of the
top two counts of conspiracy in the first degree, but
found him guilty of two counts of conspiracy in the
second degree as lesser included offenses. The jury also
convicted the defendant of false personation and
unlawful assembly.
During the trial, the Supreme Court declared Detective
Adam Georg an expert “in the hierarchy, practices,
[and] languages of the S.N.O.W. Gang and other

4a
gangs.” Similarly, the court declared Lieutenant
Robert Bracero an expert “in the history, hierarchy,
practices and language of the S.N.O.W. Gang and rival
gangs.” Georg testified that his knowledge of the
S.N.O.W. Gang was derived, among other things, from
approximately 70 to 80 debriefings of S.N.O.W. Gang
members, many of whom had been arrested and were
in custody at the precinct or in jail. Similarly, Bracero
testified that he debriefed approximately 50 S.N.O.W.
Gang members after their arrests.
The defendant contends that Georg's and Bracero's
testimony violated Crawford v. Washington, 541 U.S.
36, 124 S.Ct. 1354, 158 L.Ed.2d 177 by permitting the
introduction into evidence of out-of-court testimonial
statements made by absent witnesses who were never
subjected to cross-examination by the defendant (see
United States v. Mejia, 545 F.3d 179, 198 [2d Cir.] ).
As a threshold matter, we note that Crawford does not
bar the use of testimonial statements for purposes
other than establishing the truth of the matter
asserted (see Crawford v. Washington, 541 U.S. at 60
n 9, 124 S.Ct. 1354; United States v. Lombardozzi, 491
F.3d 61, 72 [2d Cir.] ). Thus, “it is permissible for an
expert witness to form an opinion by applying [his or]
her expertise to otherwise inadmissible evidence
because, in that limited instance, the evidence is not
being presented for the truth of the matter asserted”
United States v. Lombardozzi, 491 F.3d at 72.
Here, contrary to the People's contention, information
derived from the debriefing of arrested S.N.O.W. Gang
members constitutes testimonial statements within the
meaning of Crawford (see United States v. Mejia, 545
F.3d at 198). The more difficult question presented is
whether the substance of such statements was
impermissibly conveyed to the jury by Georg and/or
Bracero in the guise of expert testimony (see id. at
199). We find that it was. For instance, when Georg,
over defense counsel's objection, was asked about the

5a
basis for his decision to arrest the defendant and
others who had congregated in Montbellier Park on
April 1, 2014, on a charge of unlawful assembly, Georg
specifically mentioned debriefings he had conducted
with unnamed members of the S.N.O.W. Gang. While
the Supreme Court promptly sustained an objection
precluding Georg from conveying to the jury what the
unnamed gang members had told him, the fact remains
that the jury was made to understand that the basis
for Georg's belief that the defendant was “preparing to
engage ... in tumultuous and violent conduct” Penal
Law § 240.10) was information obtained from Georg's
prior questioning of arrested members of the S.N.O.W.
Gang. Nor is there any indication that Georg merely
relied on this hearsay information for the purpose of
forming an independent opinion based on his own
expertise (see United States v. Mejia, 545 F.3d at 199;
United States v. Lombardozzi, 491 F.3d at 73; United
States v. Dukagjini, 326 F.3d 45, 59 [2d Cir.] ). Bracero
testified, inter alia, about the S.N.O.W. Gang's
purported standard operating procedure of having
high-level members travel in vehicles with
subordinates carrying weapons for the purpose of
gathering intelligence on the residences, schools, and
work places of rival gang members. Bracero also
testified that the S.N.O.W. Gang has been targeted for
investigation because of “[t]heir history of violence”
and the “potential [for] retaliation” following the death
of one of their members at the hands of a rival gang.
Similarly, Georg testified regarding the S.N.O.W.
Gang's reputation for retaliation following the killing
of one of its members. To the extent that testimonial
hearsay was the source material for such testimony,
there is no indication that Georg or Bracero merely
relied on such hearsay for the purpose of forming an
independent opinion based on their own expertise (see
United States v. Mejia, 545 F.3d at 199; United States
v. Lombardozzi, 491 F.3d at 73; United States v.
Dukagjini, 326 F.3d at 59). To the contrary, it appears
that Georg and Bracero were impermissibly allowed to
convey the substance of such hearsay to the jury for its
truth.

6a
Separate and apart from the Crawford errors, Georg's
testimony also ran afoul of the proscription against
police experts acting as summation witnesses, straying
from their proper function of aiding the jury in its factfinding, and instead “ ‘instructing the jury on the
existence of the facts needed to satisfy the elements of
the charged offense’ ” People v. Inoa, 25 N.Y.3d 466,
475, 13 N.Y.S.3d 329, 34 N.E.3d 839, quoting United
States v. Mejia, 545 F.3d at 191). During the trial,
Georg read Facebook posts verbatim to the jury, offered
commentary about the time of each post in relation to
key events in the case, and connected evidence of the
parties exchanging their phone numbers with records
confirming that a call was subsequently placed. The
defendant's counsel correctly objected to such
testimony, citing Mejia and Inoa, on the ground that
Georg was no longer acting as an expert witness but
was usurping the jury's function by interpreting,
summarizing, and marshaling the evidence. Unlike the
Crawford violation, this type of error is
nonconstitutional in nature (see People v. Inoa, 25
N.Y.3d at 472, 13 N.Y.S.3d 329, 34 N.E.3d 839).
As a result of the Crawford violation and the Inoa
error, a new trial must be ordered because the evidence
of the defendant's guilt, without reference to the errors,
was far from overwhelming (see People v. Crimmins, 36
N.Y.2d 230, 241, 367 N.Y.S.2d 213, 326 N.E.2d 787).
As there must be a new trial, we further note that the
Supreme Court's ruling under People v. Sandoval, 34
N.Y.2d 371, 357 N.Y.S.2d 849, 314 N.E.2d 413 was
inconsistent with the rule that the People may not use
a youthful offender adjudication to impeach a
defendant since an adjudication is not a conviction of
a crime (see People v. Gray, 84 N.Y.2d 709, 712, 622
N.Y.S.2d 223, 646 N.E.2d 444; People v. Cook, 37
N.Y.2d 591, 595, 376 N.Y.S.2d 110, 338 N.E.2d 619;
People v. Ramdhan, 243 A.D.2d 657, 663 N.Y.S.2d
260). Upon retrial, any inquiry should be limited to the

7a
illegal or immoral acts underlying such adjudications
for the purpose of impeachment (see People v. Gray, 84
N.Y.2d at 712, 622 N.Y.S.2d 223, 646 N.E.2d 444;
People v. Rivera, 152 A.D.3d 625, 626, 58 N.Y.S.3d 542;
People v. Black, 77 A.D.3d 966, 967, 911 N.Y.S.2d 78;
People v. Harripersaud, 4 A.D.3d 375, 771 N.Y.S.2d
184).
The defendant's remaining contentions are without
merit.
RIVERA, J.P., CHAMBERS, ROMAN and IANNACCI,
JJ., concur.

8a
Proceedings
know any of this is actually factual or truthful? We
don't cross examine the person who wrote this. We
don't know if they made it up whole cloth or based on
any investigation or research or anything so the jury
would be getting information that no one in this room
really knows whether it's true or not so I join in my
cocounsel’s arguments as well.
THE COURT: Decision reserved. Eight?
MR. REGAN; Page eight and nine together, this is
three pages a Facebook message which was sent from
Trigger Oc to an individual named Jet Galin, G-A-L-IN, G -R-E-E-N.
THE COURT; Who is Trigger Oc?
MR. REGAN: Lynnard Biggs, the same individual with
the tattoos, he is the leader of the S.N.O.W. Gang.
THE COURT: What's his name?
MR. REGAN; Lynnard Biggs L-Y-N-N-A-R-D B-I-G-GS, the same individual with the tattoos on his hands.
This is a message that pretty much traces the history
of the Young Bosses. I!m sorry. This was sent from
Galin Green to Trigger Oc, it traces the history of the
Young Bosses. It names Trigger Oc as a founding
member as number three of the YB co-founders. It
indicates certain terms that are still used by Young
Bosses and members of the S.N.O.W. Gang including

9a
terms like big suits, on page nine if you go most of the
way down on the column on the left it talks about the
term Stacy Adams being a strap, that will come out to
mean that Stacy or Stacy Adams refers to a strap
which refers to a gun and eventually that Stacy refers
to gun.
In addition there is other information involving other
terms used by members of the gang, bossin', being a
boss, B.0.E., Bosses Over Everything, other language
used by certain members of certain gangs which will
help the jury understand and establish that the
witnesses in this case who are interpreting the
Facebook postings are doing so based on their research
into the gang and having it confirmed by postings such
as this.
MR. MALTZ: I would object, your Honor, because it's
impossible for Mr. Lucas to be able to cross examine
the maker of these statements. Trigger is not going to
be a witness here and it would be impossible to cross
examine.
Davis versus Alaska denied right to
confrontation among other cases I don't have in front
of me, he is denied the right to confrontation, your
Honor.
MS. POVMAN: I join that application under Crawford
versus Washington, Jet Galin Green is allegedly the
maker of the statement. It's clearly an out-of-court
statement made by a person who is not a witness in
this case, totally deprives Mr. Jones of his right of
confrontation and deprives him of the right to a fair
trial under the Sixth Amendment and the New York
State Constitution.
MR. SANTOS: I join that application.

10a
MR. STRACHAN: I join that application for Mr. Cato.
MR. MUCCINI: Mr. Campbell joins that application as
well.
THE COURT: Reserved. Ten?
MR. REGAN: Judge, the photograph on item ten is a
photograph posted by Bo B-A-N-N-I-S-T-E-R, posted on
or about February 2 of 2013. Bo Bannister is a member
of the S.N.O.W. Gang. It is a photograph of him
pointing what appears to be a gun made by hand at
someone flashing the Wood City Gang sign. It goes to
the usage of this kind of statement by hand with
regard to what it means, Judge. I'm not - I know Mr.
Bannister is not on trial here, but this gang sign has a
specific meaning, and it is an illustration of a gang sign
that is used by others in this conspiracy in their own
personal Facebook records. So my intent here is to
have the witness be able to illustrate to the jury what
this gang sign means by having an actual example of
it before them. This is what's referred to as Wood City
K, Wood City Killa, guns to Wood City Gang signs
which indicates the rivalry with the Wood City Gang
and goes directly to the issues which are the subject of
this trial, and that's the motivation of these members
of the S.N.O.W. Gang in their retaliation against Wood
City and general rivalry with Wood City, so I think it's
relevant to allow the jury to see statements like these
which are made and are repeated by other members of
the gang including those charged in the conspiracy.
MS. POVMAN: Judge, again I renew my objection
under Crawford versus Washington. Bo Bannister
allegedly is posting a photograph. There is language on
that page that's an out-of-court statement made by a
person who is not available for cross-examination. It
will deprive my client of his right of confrontation and

11a
deprive him of a fair trial. Judge, I would suggest to
the DA if they are concerned with the hand signal, they
can X out everything except the hand and show the
officer the signal that they are discussing, but to have
in this a statement by Bo Bannister: These niggas
claim Wood City we 900 K, with someone pointing a
gun or pretending to point a gun has no relevance here.
If the purpose is to show the hands signals, then cut up
or edit these photographs and just show the hand
signals.
MR. SANTOS: I would join in that application as well.
In addition to that, again, the indictment, the
conspiracy here according to the indictment starts
March 30 and ends April 1. We don't know when the
photograph was taken, we don't know what year or
date it was, so we don't know what context it was
taken in. I join in my co-counsel's application but also
in addition to that I make that objection.
MR. STRACHAN: On behalf of Mr. Cato I join that
application. Again there is no date on this, Bo
Bannister is not one of the defendants here. I don't see
how this ties in certainly with the case on trial here,
and I think it would be highly prejudicial, and the fact
that there is no date, and it's unadulterated hearsay,
the statements in there, I would ask you to preclude
them from introducing them.
MR. MALTZ: Your Honor, I also join the application
made by co-counsel, denying right to confrontation
Crawford and Davis versus Alaska. He is not a
defendant here on trial, inability to cross examine him
regarding his intent to put the postings on Facebook,
it's highly prejudicial to my client's right to fair trial.
MR. MUCCINI: Mr. Campbell joins in the application
of all co-counsel.

12a
THE COURT: Reserved. Eleven?
MR. REGAN: Eleven is similar to a photograph earlier
showing individuals known, one is Dionne Milling,one
is David Hightower and one is Devon Depeazer again
putting Young Boss or YB hand signs in regards to the
camera, and these photos were taken around the same
time or uploaded June 11, 2011, and it goes to the
defendant Milling especially his membership in this
gang.
MR. SANTOS: Remote from 2011, same objection. It
has no probative value, Judge. It's four young men
making gestures towards a camera, that's it, and they
are going to try to make it more sinister than what it
actually is so I ask you to keep it up.
MR. MALTZ: On behalf of Mr. Lucas, I object. His
picture is not on this page, and it's highly prejudicial to
him. Mr. Milling, if his picture is on this page, I would
not have the opportunity to cross examine him, and it's
highly prejudicial.
MS. POVMAN: I would join in the arguments by cocounsel and object as hearsay under Crawford.
MR. STRACHAN: I join the application as to Mr. Cato.
MR. MUCCINI: Justin Campbell joins in co-counsel's
application. He is not in this picture. It's highly
prejudicial.
MR. STRACHAN: Mr. Cato is not in the photo.

13a
THE COURT: The photo is in, and I will give a limited
charge as to Mr. Milling.
MR. REGAN; The next photograph on page twelve was
posted by Trigger Oc, Lynnard Biggs – I don't think
there is a date on it when it was actually posted. It's
something I could get and add to the exhibit. I think it
was just inadvertently left off. Judge, this is a posting
on the Internet of a collage of photographs
superimposed on it YBZ, Bossin' or straight tossin'
YBosses Up. The significance of this photo, Judge, it
ties these Young Bosses, the gang Young Bosses,
Young Bosses up is a statement made by members of
the gang in greeting and conversing with each other,
and the purpose of this exhibit and this photograph is
to show the usage of social media about these gangs, by
these individuals.
THE COURT: Many of the other pictures shows the
usage of social media.
MR. REGAN: Okay. I think this was specifically made
for the purpose of posting it on Facebook an image like
this, almost like an internet meme put together to
specifically post on social media not, just photographs
of themselves. This is something put up publicly to
almost advertise the Young Bosses Gang, and I think
it's relevant for that reason to show their usage and
what they use social media for.
L.A.-,
THE COURT: Out. 13?
MR. REGAN: Judge, item 13 was posted on Trigger
Oc's Facebook page. This was on February 19 of 2013.
It's a photograph of four individuals. The individual on
the left in the red sweatshirt will be identified I believe

14a
as Dionne Milling. The individual on the right is
Trigger Oc, Lynnard Biggs. Those are the two
individuals who are relevant for the matter of this
case. The title, all my niggas mobbin Wood City K. You
see Mr. Milling on the left. He is flashing a Mobbed
Out Bosses hand sign with his two fingers together and
the first finger and little finger out stretched down.
Other individuals in the photograph, the individual in
the middle with the hand up i flashing a Wood City
sign and the individual behind him is pointing what
appears to be a finger gun at that Wood City signal,
and the title of the photo also supports that in which
he says Wood City K or Wood City Killer. That will be
explained by Sergeant Bracero and it's relevant to
show not only Dionne Milling's membership in this
gang but the animosity that existed even going back to
13 between the S.N.O.W. Gang, Mobbed Out Bosses
and the Wood City Gang to which Leighton Friday and
Nicholas Morris were members of.
MR. SANTOS: Same objection, Judge. You cannot tell
who is my client. I'm not sure who is going to be
identify him. The individual on the left is my client. It's
not from my client's website or web page so we don't
know if that's my client.
MS. POVMAN: I object as hearsay denied the right to
confrontation. The person who posted this or wrote it
is not available to be questioned.
MR. STRACHAN: For Mr. Cato, I join the application,
and he is not in the photo.
MR. MALTZ: I join on behalf of Mr. Lucas.
MR. MUCCINI: I join in the application of co-counsel
on behalf of Mr. Campbell.

15a
THE COURT: Is this detective going to testify that it
is Milling on the left?
MR. REGAN: Yes, he is.
THE COURT: If that foundation is laid, it's in. 14?
MR. REGAN: Judge, this is a series of four
photographs in People's 14 are a series of photographs
that are posted by an individual name– his Facebook
name is Say So Smooth, S-M-O-O-T-H, the real name
is Willie Yelder, Y-E-L-D-E-R. He's a high ranking
member of the S.N.O.W. Gang. These photographs are
being offered for a specific purpose to show the way the
gang, the S.N.O.W. Gang operates. It's being offered to
show the practices of the S.N.O.W. Gang. In these
photographs what's going on is individuals like Yelder
and other individuals who are members of the
S.N.O.W. Gang go out and take photographers in rival
gang. territory. There will be testimony that Woodhull
Avenue and 195 Street is in the heart of Wood City
territory and the point of this is to post is publicly and
show that members of the rival gang that they were
able to infiltrate their geographic area. It goes to the
rivalry between S.N.O.W. Gang and Wood City. It was
posted on or about December 15 of 2012, and these
locations will be identified by the witness as locations
that are in the middle of Wood City Gang territory and
are posted by members of S.N.O.W. Gang in order to
show those rivals that they can operate with impunity
in their rival locations.
MS. POVMAN: I object again on the basis of Crawford,
but further, Judge, as far as the DA's offer of proof,
none of the locations depicted in these photographs
have anything to do with this case. None of the
locations or persons depicted in those photographs

16a
have anything to do with any of the locations or
persons involved in this case.
MR. SANTOS: I join that application.
MR. STRACHAN: I join that application.
MR. NALTZ: I also join that application.
MR. MUCCINI: I join as well for Mr. Campbell in the
application of co-counsel.
THE COURT: I will reserve decision on this.
MR. REGAN: The next photograph on 15 is a similar
photograph as the one posted earlier. The individual in
the center of the photograph is Dionne Milling, he is
miming a trigger pull towards the camera. Other
individuals in the photograph are flashing M.O.B.,
Mobbed Out Bosses signs;
THE COURT: Say that again.
MR. REGAN: The individual in the center of the
photograph is Dionne Milling.
THE COURT: Is that the yellow arrow or the red
arrow?
MR. REGAN: It is the yellow arrow. The red arrow
goes to the hand sign being made by the person in the
back, again a Wood City hand sign with someone
pointing a finger gun at it, again Wood City killer hand

17a
sign. The caption is mobbin' at the bottom the
individual with the green arrow is Devon Depeazer
known as Crakz also flashing Mobbed Out Bosses hand
sign. The hand signs are significant in that it's Mobbed
Out Bosses and anti Wood City hand signs being
flashed to the camera with Mr. Fabdon front and
center of the photograph.
MR. MALTZ: Objection as to Mr. Lucas. Also I

18a
Lt. Bracero - People - Direct
that occur inside of locations, those are things banded
off to 2 the Narcotics Division and they handle the
other larger scale. We do the smaller scale.
Q. So these assignments in the 113, Patrol Sergeant
and then assigned to the 113 SNEU as the Sergeant,
were you exposed to gang or gang activity?
A. Yes.
Both, as a Patrol Sergeant, very related. So
when I initially got there, I was involved in a pick up
of a gang shooting that occurred between a Blood and
a Crip member at a school at which point the one gang
member shot at me as well to which I returned fire.
Eventually caught the individual. And that was while
assigned to patrol in a uniformed capacity in a marked
police car wearing my uniform. Then immediately
following that, shortly thereafter when I went to
SNEU, we dealt with many gang individuals.
Q. Those gangs were located inside the command?
A. Located within the 113, correct.
Q. Did there come a time where you were transferred
from SNEU to another unit?
A. Yes.
In the fall of 2012 the New York City Police
Department created a new unit that was going to,

19a
being formed. They strategically selected eight
locations or eight precincts within the police
department that had a large crew problem.
Q. Can you explain what a crew is?
A. Yes.
Well, traditionally gangs or crews, NYPD was
combating gang activity on a larger scale. The
traditional gangs most people know, Bloods and Crips,
MS 13 or Latin Kings. But we keep, the Department in
its wisdom figured out a lot of violence going on was
actually happening with these subsets or crews that
are more geographically driven where they don't have
the traditional rank structure and the traditional
internal workings of a regular gang. And they found
them just to be, you know, usually young men and/or
women who were aligned primarily by geographical
locations. And if you lived on a particular block, that
might become your block. Your block then, you know,
you guys come up with some kind of name and you
guys become some kind of crew. So a lot of the
robberies and a lot of the violence that was occurring at
that time was based upon these
Q. What period of time was this?
A. What period of time did I become S.E.T. Sergeant?
Q. Yes.
A. That was in November of 2012.

20a
Q. And when you became – what does the S.E.T. term
stand for? What does that mean? A. S.E.T. stands for
Strategic Enforcement Team. That was the name that
was, came up from Commissioner Ray Kelly when he
formed the team, What it necessarily means we're
going to, for targeted individuals who have had a
history of violence, specific crews that have had an
ongoing violence within a particular precinct and we're
combating them to attempt to bring down the violence
and make it safer in those local precincts that were
selected.
Q. What precinct was your S.E.T. team assigned to?
A. The 113 Precinct.
Q. So the same precinct you had worked?
A. The same precinct, correct.
Q. Was there a specific target for your S.E.T. team?
A. Yes. The S.N.O.W. Gang.
Q. How many members were in your team?
A. The team consisted of two sergeants and ten police
officers.
Q. So you were one of the sergeants?
A. I was one of the sergeants, correct.

21a
Q. You said there were several S.E.T. teams citywide,
correct?
A. That is correct.
Q. How many?
A. Eight.
Q. Were there any others in Queens?
A. No other in Queens.
Q. When you were given this assignment, did you
receive a specific mission or objective?
A.. To stop the violence that was going on for the last
calendar year.
Q. What steps did you take -MR. REGAN; Withdrawn.
Q. What were your duties and responsibilities in that
assignment?
What did you do on a day-to-day basis?
A. Well, as I mentioned, the whole S.E.T. model had
just been born. We, our instructions were somewhat
loose based.

22a
MR. MALTZ: Objection. I object to his instructions,
given information from another source what to do.
THE COURT: Sustained.
MR. REGAN: This is background but I'll move on.
THE COURT: All right. I'll allow it. Go ahead.
Q. What's your mission?
MR. REGAN: Withdrawn.
Q. What was your day-to-day, what do you do on a dayto-day basis?
A. On a day-to-day basis our job was to travel the
precinct looking for and/or observing any of the
members of the gangs that we were aware of at that
time through gathering the individuals or locating
them, finding out whom they’re affiliated with and who
they hang out with, identifying them by their names or
their nicknames. We also during that time used the
social media avenue to track them as well to find out
names that they called themselves or what their other
associates would call themselves. We also were able to
identify allegiances in regards to whom, to whom they
were friendly with and to whom they were unfriendly
with. Also were able to identify for other investigations
the nature of certain violence that was occurring,
getting more of the back story to assist the police
department and the District Attorney's office in getting
an understanding in terms of the mind set of what's
going on and why.

23a
Q. So members of your team, I just want to ask you,
did you have a detective, you had police officers work
with you, correct?
A. Yes.
Q. Was one of them a person named Adam Georg?
A. Yes.
Q. When did he work for you?
A. He worked at inception of the S.E.T. Team. He was
also a member of my SNEU team prior to that. The
entire SNEU unit was absorbed and were given a new
mission. Then we became a S.E.T. team so he was a
member of my team at this particular time. And he
lasted on my team for about nine months before he
graduated and went to the Gang Unit.
Q. So he works in the Gang Unit now?
A. He currently works in a Gang Unit, correct, yes.
Q. Did you ever receive any formal classroom training
on gangs and gang investigations?
A. Classroom, no. We attended many presentations and
conferences in relationship to gangs. But there was no,
no, there was no specific schooling that could be done
for what we were doing.
Q. Was any available?

24a
A. None was available, no. This was a brand new
model that was enacted. A pilot program, so to speak.
And we were, if there were to be one now, most likely
be proctored by myself and my team.
MR. STRACHAN: Objection.
MR. MALTZ: Objection.
MS. POVMAN: Objection.
MR. MUCCINI: Objection.
MR. SANTOS: Objection.
THE COURT: Sustained as to what probably would be.
Q. These gang conferences you attended, what kind of
information did you take from them?
A. During the conferences you get to have an
understanding of the level of violence that they were,
many of these gangs -MR. MALTZ: Objection. He's testifying from what
other people told him.
MR. REGAN: It's qualifications as an expert.
THE COURT: Rephrase the question.

25a
Q. What kind of information did you take from these
gang conferences? What did you learn there?
A. I learned the violence associated with many of the
gangs, the rank structures that they used. I also
learned to, the smaller crews, how they were now
acting. I also learned the 10 different phrases that are
associated with different gangs. And getting a
conceptual understanding of something as simple as
what's called being a 10 90, double-jacketing which is
a term used whereas in the traditional -MR. SANTOS: Objection.
THE COURT: Overruled.
A. (Cont'g) In the traditional model of gangs as law
enforcement understood everybody was either a Blood
or a Crip and you only had one thing; you were loyal to
that particular, that particular organization. But now
these, on these crew levels they had an understanding
whereas if you lived on a block and you were a Crip
and your neighbor was a Blood, you guys can also be a
part of a local crew that's, that can consist of several
different gangs within this one crew and you could be
affiliated to both.
Q. From the time you were assigned to the S.E.T. team
what kind of activities did you undertake to learn
about the S.N.O.W. Gang when you were assigned to
that unit?
A. Some of the activities we would do, as I mentioned
earlier, the observations. We would do covert
operations where we would observe them from a
distance, viewing them with the members that they
were with, noticing their handshakes and their hand

26a
signs. We would take the time to realize, you know,
which people were in charge of that particular group of
individuals that were together.
We also, as I
mentioned, followed them on the social media,
following their Facebook as well. We also interviewed
them upon completion of their arrests. We would
debrief the individuals and we would gather
intelligence that way where we would find out, we
become aware of their ranking structure, names for
them, crimes they may have committed, the type of
crimes that they are associated with, and the rank
structure of those people.
Q. Were many of them willing to talk to you?
A. Yes.
Q. Approximately how many members of those gangs
have you interviewed?
A. Possibly about 50 members.
Q. How many specific interviews have you conducted
on members of the S.N.O.W. Gang?
A. Hundreds.
Q. You said you monitor social media, correct?
A. Yes.
Q. How did you do that especially, specifically on Face
book?

27a
A. Well, once we knew who they were by sight from
seeing them on the street, we then, some of them, some
of the individuals used their government name, their
born name as what they called themselves on
Facebook. So we would follow those specific names
when looking through those pictures. We would also
find out some of the, when we knew some of their
nicknames of the other individuals, find out those, it's
either nicknames that they had also as their Facebook
names, so we were then able to make that positive
identification that is in fact that same individual. We
would then look through pictures as well as observe
their conversations to each other, their statuses that
they would put. And then if there was any kind of
probable cause for any kind of evidence in regards to
potential crimes that they did commit or were
intending to commit, we would then request a search
warrant for their, for their Facebook account as well as
their in-box in their private messages. Because many
times the public postings would then, they would start
the beginning part of describing a crime to which then
they would say, well, take, they say, take it to my inbox. Then they go through a private or direct message
in their in-boxes explaining the rest of the

28a
Lt. Bracero - People - Direct
Q. Are you familiar with a group called the Young
Bosses?
A. Yes, I am.
Q. Did you become familiar with them in your
assignment with the S.E.T. team?
A. Yes.
Q. How about Loyalty Over Everything or L.O.E.?
A. Yes.
Q. How about Mobbed Out Bosses?
A. Yes.
Q. Did you come to learn specialized language that
individuals in these gangs or sets used to communicate
with each other?
A. Yes. They had a very unique language that we had
to become extremely fluent in especially if they wanted
to be able to ascertain and understand the, their
Facebook postings as well as their search warrants
that we got at later times as well extremely helpful
during the debriefings of the individuals. We could
understand, you know, better communicate with them
on a peer level, if you will. So that we could, by
speaking the same lingo as them, there would be no
misunderstandings when information was exchanged

29a
or names were given or they were giving descriptions
of the actions of themselves or others.
Q. Did you become familiar with gangs or groups that
were rivals of the S.N.O.W. Gang and those other
gangs that you mentioned?
A. Yes.
Q. And who, what kind of gangs were they? What were
their names?
A. Several of the gangs who were rivals, Wood City,
YGs, 8--.
Q. What does YGs stand for?
A. Young Guns. They were the direct rivals of the YB5.
A rivalry that gave birth on Bikers Island in 2007 or 8.
Q. What other gangs, you said Wood City and YG?
A. Wood City, YG, 821 and 40 Projects. They both
originate out of 40 Projects in Jamaica. F Gang. Those
are their primary rivals.
Q. And you stated earlier that you had to become
familiar with their language in order to better conduct
your investigation, correct?
A. Correct.

30a
Q. Did you ever have occasion to determine if you were
correctly interpreting the language used by members
of the gang?
MS. POVMAN: Objection.
MR. STRACHAN: Objection.
MR. SANTOS: Objection.
MR. MUCCINI: Objection.
MR. MALTZ: Objection.
THE COURT: Overruled.
A. Yes.
Q. How did you become aware that you were,
whatever, if you were correct? How did you become
aware that you were correct?
A. Through the debriefings, through the conversation
with the individuals themselves. As I stated earlier,
you know, by getting the base of the knowledge about,
you know, how they speak and the words they use, we
were able to use them within a conversation and use
them contextually and getting a complete
understanding either, you know, saying straight just
yes or ah-huh, they understood exactly what we were
saying. Sometimes if there was something-MS. POVMAN: Objection to what they understood.

31a
THE COURT: Without going to intent you may
continue.
A. Sometimes if I wasn't completely positive on a thing,
I just couldn't grasp it, I would just ask what does that
mean? To which they would be fine, you know, offering
up what it does mean.
MR. STRACHAN: Objection.
MS. POVMAN: Objection.
MR. SANTOS: Objection.
MR. MUCCINI: Objection.
MR. MALTZ: Objection.
THE COURT: Overruled.
A. (Cont'g) I would also do this on the other side with
the rival gang members. Violence was both ways. So
when we would go after any or arrest any person who
we know or another person was arrested by our
precinct or other precincts we would go and interview
and debrief the rival gang and we would ask them, you
know, same questions and use the context of the
conversation to get an understanding.
Q. How long between the time you were assigned to the
S.E.T. team and time you were promoted were you
conducting these kind of activities?

32a
A. Every day.
MR. REGAN: Judge, at this point I'm going to offer
Lieutenant Bracero as an expert in the history,
hierarchy, practices and language of the S.N.O.W.
Gang and related gangs, Young Bosses, Mobbed Out
Bosses and Loyalty Over Everything.
THE COURT: History, hierarchy. ..?
MR. REGAN: Practices and language of those gangs
and rival gangs that he talked about.
THE COURT: Any objection?
MR. STRACHAN: Objection.
MS. POVMAN: Objection.
MR. SANTOS: Objection.
MR. MUCCINI: Objection.
MR. MALTZ: Objection.
THE COURT: Okay. Mr. Maltz?
MR. MALTZ: May I ask couple of questions?
THE COURT: Sure.

33a
Q. Good afternoon.
A. Good afternoon, sir.
Q. You indicated that you were working with this
group of individuals for a number of years, correct?
A. I'm sorry?
Q. You've been working with people in your
investigation of these groups for a number of years,
two years, you said? One year? Two years?
A. The S.N.O.W. Gang, I was investigating the
S.N.O.W. Gang for, yeah, approximately two years.
Q. And you said that you testified that during that
period of time you would speak to other people who
they claimed to you that they're members of the
S.N.O.W. Gang, right?
A. Correct.
Q. Did you ever utilize that to infiltrate the
organization? Become agents of your team?
A. I'm sorry? I can't...
Q. Did you ever become agents of your team?
THE COURT; This has nothing to do with this. This is
beyond the scope of your questioning him as an expert.

34a
Q. Did you ever have paid informants?
MR. REGAN: Objection.
THE COURT: Again, beyond the scope. That's a cross
examination. That's not voir dire.
MR. MALTZ: Okay. I have nothing further.
THE COURT: Anyone else?
MS. POVMAN: Yes.
VOIR DIRE
BY MS. POVMAN:
Q. Good afternoon, Lieutenant.
A. Good afternoon.
Q. I have to apologize. I have candy in my mouth.
Lieutenant, you told us that in November of 2012 you
were assigned to the S.E.T. or SET Team?
A. Yes, ma'am.
Q. Okay. And if I understand your testimony correctly,
that S.E.T. team was assigned to investigate gangs in
Queens County?

35a
A. Crews primarily within the confines of the Precinct.
Q. Okay. And you told us that you never went to school
for that, right?
There is no school to go for that, right?
A. Correct.
Q. So that your expertise is based on daily surveillance
of persons in the 113 Precinct?
4 A. Not solely, no.
Q. Okay. But partially it's based on your surveillance,
6 right, of individuals in the 113 Precinct?
A. That is a part of it.
Q. And you told us also that you used social media?
A. Yes.
Q. So it would it be fair to say that you read Facebook
accounts?
A. Yes.
Q. You received the same sort of, you would put
S.N.O.W. Gang in the computer and see what came up?

36a
A. No.
Q. Okay. But so it was only Facebook accounts that you
read? You never read any other articles about the
S.N.O.W. Gang?
A. No.
Q. Then you told us that you, in addition to your
surveillances, that you would interview S.N.0.W. Gang
members after their arrests?
A. Yes.
Q. And you said that you have done approximately 50
arrests of S.N.O.W. Gang members?
A. Fifty individuals.
Q. Fifty individuals. And when you made these
interviews after their arrests, do you prepare reports in
connection with those interviews?
A. No. Unless there is something that is material to a
specific, a specific case.
Q. Well, Officer, you were developing an expertise in
the S.N.O.W. Gang, right?
A. Yes.

37a
Q. And you told us on direct examination that to
develop this you would interview S.N.O.W. Gang
members after arrests?
A. Yes, very similar to -Q. Excuse me?
THE COURT: Let him finish.
A. It's similar to if you are looking to learn another
language, you may go to a foreign country and
submerse yourself in the culture and language with
them to better learn it.
Q. But what my question is you're telling this jury that
your immersing in the S.N.O.W. Gang language is
based on memory?
A. As any language is based on memory.
Q. So are you telling us that you never prepared any
documents in connection with any of your debriefings?
A. Oh, yes. Yes, I have.
MR. REGAN: Objection, Judge.
This is beyond the scope of voir dire.
MS. POVMAN: Judge, it's the basis of his expertise.

38a
THE COURT: Move on.
MS. POVMAN: Excuse me?
THE COURT: Move on.
Q. You told us that you, so did you prepare documents
in connection with your debriefings?
A. Sometimes.
Q. Sometimes. And how would you determine which,
what was important and what wasn't important?
A. Items that were material or provided evidence
towards a case a document would be prepared upon.
Information in terms of the wording, there is no report
for that.
Q. There is no, you never prepared any reports in
connection with that?
A. I wasn't making a dictionary, no.
Q. Okay. And you told us also that you, your focus was
on the S.N.O.W. Gang during this, since November
2012, but you also investigated other gangs as well?
A. The investigation was on the S.N.O.W. Gang. We
monitored the other gangs then as well as conducted
enforcement on the other gangs as well based upon if
they had a string of violence that would potentially,
you know, be against any S.N.O.W. Gang members.

39a
Q. I get that. I understand that part.
A. Good.
Q. Did you read their Facebook pages also?
A. Yes.
Q. Okay. Now, Lieutenant, would it be fair to say that
you've never been accepted as an expert in any
Supreme Court case?
A. That would be accurate.
Q. So that this is the first time you're being tendered
as an expert witness?
A. This is the first time a S.N.O.W. Gang has been on
trial.
Q. Oh, really? And this is based on your expertise?
A. Yes.
Q. So it's your testimony as an expert, proposed expert,
that there have not been any S.N.O.W. Gang trials in
Queens County?
A. In terms of the Conspiracy 1 charge that's brought
forward today, this is the first time this model has
been used, yes.

40a
Q. So this is the first time this type of case has been
used?
A. Has been tried in Queens.

41a
Lt. Bracero - People - Direct
tag Mob.
Hash tag is the number sign for people who don't
know what that is. It's the number sign that's put in
front of a word or a statement to explain what they're
trying to say or the emotion that they're putting out
there or what they're claiming. So they would put the
hash tag W C K which is Wood City Killer. Hash tag
900K. 900 was the number that the Wood City guys
took, associated with or they borrowed from the
Chicago rappers who used the 300. And that would be
their clique or their gang. There is some famous
rappers from Chicago. They throw out the 300. These
guys in Wood City, they would be 900. They would say,
900 a K at the end. They would also indicate W with
their hands as well. Going back to words -- pardon me.
They would also describe something or someone as a
dub. Or a plate. A dub means like they're not cool.
MR. MALTZ: Judge, I object. This is beyond the
question asked by the prosecutor.
THE COURT: Sustained.
Q. What does dub mean?
A. Dub is something that is no good or not cool.
Q. How about a plate?
A. A plate is someone who, a plate is indicative of food.
And the food means, let's say someone who is an enemy
of theirs, if they ever saw this particular person, the

42a
rest of the wolves of their team, the team members
that are within the gang, they are to be consumed or
eaten so by eating them would be saying to assault
them or shoot them or rob them. That's a guy who is a
plate. So he's, you know, he's a loser. He's our enemy.
He's a plate. Or he could be an OP. So OP, opposition.
Initially this goes with the training. We always
thought, we see things indicating OP, that OP was a
cop. Seems to make sense. Came to find out through
those debriefings the OP is actually the opposition. So
my enemy is an OP. Could be a cop. But an OP most
often --

MR. MALTZ: Judge, objection.
A. – is the opposition.
MR. MALTZ: He's making assumptions.
THE COURT: Overruled.
Q. Did they have a name for the police?
A. Yeah. Pigs. Boys. All those ones that everyone else
16 has heard.
Q. So they're called boys?
A. Yeah, the boys. The pigs.
Q. Were you familiar with any photographic taunting
that would go on?

43a
A. Yeah.
In terms of the photographic wise, they would be
done several different manners. One of them would be
with their hand gestures. So, as I indicated before
when I showed the Mob or the

44a
Lt. Bracero - People - Direct
Q. The purple arrow?
A. Is David Hightower. Haze.
Q. What is Dane'e Cato doing with his hands?
A. Dane'e Cato is making a trigger pull with his hands.
Q. And what date was that posted?
A. This was on May 14, 2013.
Q. I'm going to ask you, are you familiar with the term
grip?
A. Yes.
Q. What does the word grip mean?
A. A grip is a gun.
Q. How did you determine that is what that means to
these individuals?
A. Through their, through speaking to them, through
their Facebook posts where they post the word grip
included with both picture and just word form.

45a
MR. REGAN: Judge, can I have a brief side bar?
THE COURT: Sure.
(Whereupon, at this time, the following side bar
conference was held:)
MR. REGAN: Judge, I was going to come up here, and
I know that the picture of the firearms flashed for a
second before I blacked out the screen, I believe that
it's admissible at this point. They are not conceding
that grip means gun. I need to prove that. They're not
conceding

46a
Lt. Bracero - People - Direct
what that means?
A Yes. A stacey is a gun.
Q Your termination of that word, what is that based
on?
A It's based on my knowledge derived from the
interviews or debriefings of members of the S.N.O.W.
Gang as well as through conversation with individuals
in the neighborhood, including S.N.O.W. Gang
members as well as through social media -MR. MALTZ: Objection.
MR. SANTOS: Objection.
THE COURT: Overruled.
A – as well as social media postings and other private
or public social media. As well as a guide book or a -papers with regards to the YB gang, where a list of
definitions of terms as well as greetings, challenges
and responses that are –
MR. MALTZ: Objection to this line of testimony, your
Honor. It's hearsay and -THE COURT: Overruled.

47a
A. In those – in all of those instances, they refer to
stacey as a firearm.
Q. You also told us what the word grip refers to. Do you
recall that?
A. Yes, I do.
*

*

*

Lt. Bracero - People - Direct
Q Just a few more questions. Where were you
assigned on March 30th of 2014?
A To the 19th Precinct.
Q You were no longer with the S.E.T. team; is that
correct?
A That is correct.
Q Did you learn that day about an incident that 8
occurred involving the S.N.O.W. Gang?
A Yes, I did.
MS. POVMAN: Objection. Hearsay.
11 MR. SANTOS: Objection.

48a
MR. STRACHAN: Objection.
THE COURT: Overruled as to whether on not he
learned.
Q Did you learn about an incident that occurred that
A Yes, I did.
Q Who did that incident involve?
MS. POVMAN: Objection.
MR. STRACHAN: Objection.
MS. POVMAN: Calls for hearsay.
THE COURT: Sustained.
Q As an expert, in your expert opinion into the history,
hierarchy -MR. REGAN: One moment, please, your Honor.
(Whereupon, there is a brief pause in the proceedings.)
Q You were qualified last week as an expert in the
practices of S.N.O.W. Gang, do you recall that?
A Yes.

49a
Q If you had still been assigned to the S.E.T. team,
hypothetically -MR. MALTZ: Objection.
MR. STRACHAN: Objection., your Honor.
THE COURT: Overruled. It's a hypothetical.
Q If hypothetically a member of the S.N.O.W. Gang
had been shot and killed, what kind of enforcement
activities would you undertake after that?
MS. POVMAN: Objection.
MR. STRACHAN: Objection. Improper foundation.
THE COURT: Overruled.
A Enforcement activity.
Q Or investigation activity.
A In terms of the investigation activity, we would have
in regards to social media, we would have immediately
started monitoring the social media accounts.
MS. POVMAN: I'm going to object to the whole line to
what he would have done had he been assigned to
investigate a case. This is pure speculation.
THE COURT: Overruled.

50a
A We would have monitored the social media accounts
of not only the members of the S.N.O.W. Gang, as well
as members of their most recent rival gangs,
specifically in regards to the locations of where the
incident may or may not have occurred. We would have
requisitioned Face book.
MR. MALTZ: Objection to what we would have done.
What he would have done. He's referring to what other
people would have done.
THE COURT: It's a hypothetical. It's based on a
hypothetical, the response. Overruled.
A The S.E.T. team then reaches out to Facebook and
gets the records for all activity in regards to that to be
held, to be saved so that further deleting could not
occur from the accounts in question. We would have
gone out into the streets and attempted to locate those
specific individuals that are known S.N.O.W. Gang
members and gone to the area of their primary
hangouts as well as their residents.
Q Let me ask you, you said you would conduct this if
a member of S.N.O.W. Gang was shot and killed, you
would conduct this kind of investigation into the
S.N.O.W. Gang itself?
A Correct.
Q What would the purpose of that be? Why would do
you that?
MS. POVMAN: Objection.

51a
MR. MALTZ: Objection.
MR. SANTOS: Objection.
MR. STRACHAN: Objection.
THE COURT: Rephrase your question.
Q You're saying you would investigate the same gang
involving the member who was killed, correct?
A Correct.
Q Why would that be a focus of your investigation as a
gang expert?
A For potential retaliation.
MR. MALTZ: Objection, your Honor.
MR. STRACHAN: Objection.
THE COURT: Overruled.
Q You testified in regards to your knowledge of the
practices of S.N.O.W. Gang.
A Yes.
Q With regard to the methods S.N.O.W. Gang utilizes
when carrying out certain acts or crimes, specifically,

52a
do they have a standard operating procedure when it
comes to transporting firearms or using firearms?
A Yes.
Q What is that?
A Well, there are several different methods. The
* * *
Lt. Bracero - People - Direct
(Whereupon, the sworn jurors exit the courtroom.)
THE COURT: All right. Lieutenant, you may step
do'vn. Please remain outside until we are ready to
resume.
THE WITNESS: Thank you.
(Witness exits the courtroom.)
THE COURT: Okay. As to photo number 1.
MR. REGAN: Judge, I'm going to put the photo up on
the screen so we can all see it. Okay. With regard to
photo number 1, Judge, this is a photograph of
Leighton Friday on the right there. You can see him
making a Young Boss hand signal with his right hand
and pointing his fingers as a gun towards the Young
Boss signal with his left hand. Person who is with him,
to his right, is making a Young Gunner's or Y.G. 's
hand signal with both of his hands. This was posted on
December 24th of 2013. This is relevant to show the

53a
animosity between Leighton Friday and the S.N.O.W.
Gang and Young Bosses. It's relevant to show or it
would be argued, obviously, that it goes to the nature
of the rivalry and therefore the motive for the
defendants after their friend and co-gang member was
killed, would suspect that Leighton Friday either had
something to do with it or would be interested in
shooting and killing Leighton Friday regardless of
whether or not he had anything to do with it because
of the animosity between the two of them. He's a wellknown enemy of the S.N.O.W. Gang, Young Bosses,
L.O.E., M.O.B. and this gives the jury an insight into
the fact that he was not shy about putting that out
there on Facebook publicly.
MS. POVMAN: Judge, after hearing the offer of proof,
I renew my objection. This is hearsay, depriving the
right to confrontation. How does a posting by anonparty, a non co-defendant on December 14th of 2013,
become relevant to testimony about the trial that
concerns itself with March 30th?
MR. REGAN: Judge, I don't want to interrupt further
Counsel, I just want to say with regard to Crawford,
Crawford involves testimonial statements made out-ofcourt, which are testimonial in nature, postings on
Facebook, a photograph of someone making signs with
their hands are not testimonial in nature.
MS. POVMAN: It's still hearsay, anout-of-court
statement by a party that is not here to be cross-examined. It is pure hearsay.
MR. STRACHAN: I would join in that. I would join in
Miss Povman's objections on behalf of Mr. Cato.
MR. MALTZ: I also don't like the fact that on

54a
Lt. Bracero-People-Cross (Maltz)
CROSS EXAMINATION
BY MR. MALTZ:
Q All right. Lieutenant, my name is Judah Maltz for
Mr. Trevor Lucas. I'm going to ask you a few questions.
When we left here on Thursday afternoon, the Judge
told you not to talk to the District Attorney -MR. REGAN: Objection. He didn't. Objection.
Q During that period of time when you left the
courtroom -THE COURT: Sustained and stricken.
Q Did you ever speak to Mr. Regan or Miss Theodorou
about your testimony after you left the courtroom on
Thursday?
A Thursday, no.
Q What about during the weekend, any phone calls,
communications with the members of the team?
A This weekend, no.
Q Okay. Now, you've been involved in this case– well
your investigation of this organization you claim to be
S.N.O.W. Gang, now you said the year 2012, correct?

55a
A Yes.
And you worked on it on a S.E.T. team for a period of
time up until the period of March 2014 when you left
to go to the 19th Precinct, correct?
A Yes.
Q Now, during that period of time you were involved
in investigations, right?
A Yes.
Q And part of your investigation included talking to
people. You indicated that you spoke to about 100
people, 6 members of this organization, right?
A No.
Q 50 people?
A Yes.
Q All right. These people you said were criminals,
people who got arrested, charged with crimes?
A Charged with crimes.
Q And when they came – did they come to the office to
speak to you voluntarily or was there some inducement
for them to talk to you?

56a
A No inducement. There are several members who
didn't want to speak at all.
Q Okay. They had pending charges against them,
correct?
A Correct.
Q Did you offer any of these people who had these
charges against them any rewards for their
cooperation?
A Yes.
Q Okay. Did that include like reducing a main charge
or top charge.to a lower charge?
Lt. Bracero - People - Cross (Maltz)
A Yes.
Q Okay. Did it include maybe offering them from a
significant period of time in jail to a lesser period of
time in jail?
A I don't have the authorization to make that happen.
I had indicated to some people that we would speak to
the District Attorney's office in regards to potentially
reducing sentences.
Q During this conference you had with these
individuals was the District Attorney present during
these interviews?

57a
A No.
Q Were there any other officers present?
A Yes.
Q Would Officer Georg be present during that period of
time?
A Yes. Until his departure from the gang unit, yes:
Q Pardon me?
A Until he left the 113 Precinct and then became
assigned to the Gang Unit, we would have been doing
debriefing together.
Q Okay. So were any of these people who came to your
office you spoke to charged with conspiracy first
degree?
A None of them are the defendant present here.
Q I'm not talking about the defendants. I'm not talking
about the gentlemen in the courtroom. I'm talking
about the 50 people you spoke to in the past, were any
of them charged with a class A felony, A-1 felony -MR. REGAN: Objection to the form.
Q - with potential life imprisonment?

58a
THE COURT: Sustained to the form.
Q Anyone charged with murder?
A Yes.
Q Okay. They cooperated with you, correct?
A Those individuals, no.
Q Those people were charged with very serious crimes.
A I'm a little confused. I'm sorry.
Q You said that people did cooperate with you and did
you tell them you would look to the DA's office to -for them to get a lighter sentence, right?
A That was one of the tactics used in the debriefings,
yes.
Q Did you put that in writing?
A No. Once again, I go back to – I don't have the
authority to do such items, only thing I could ever do
was to present them to the District Attorney's office.
Q You did encourage them to cooperate, didn't you?
You told them that it was to their best interest if they
gave information to you, is that true?

59a
MR. REGAN: Objection.
A That is always true. It is always in the guest's best
interest to cooperate.
MR. REGAN: Objection.
Q Any of these interviews you had with these
individuals, were they videotaped or audio taped?
A No.
Q So you had information about these individuals, they
had charges pending against them, and you gave them
inducement that if they cooperated with you that the
charges against them would be lighted, correct?
A When the individuals who were brought in, who
weredebriefed, they were typically in on lesser charges
than the charges presently. Speaking of.individuals
who might be in for a misdemeanor, if they had a
serious felony that was pending against them, their
cooperation would not be useful due to the fact that it
would be hard to sell this particular individual to the
District Attorney's office as well as to a jury.
Q So you're telling us that you don't used -MR. SANTOS: Objection, Judge. Move to strike.
MR. REGAN: It was responsive to the question.
THE COURT: Sustained as to the word jury.

60a
Q You're telling us that you only asked people to
cooperate with you that were charged with
misdemeanors and not felonies?
A Depending upon which particular case we were
looking for assistance for. The time that I was in the -working. for.the S.E.T. team, the particular charges
that are here in question today, this particular
conspiracy had not yet occurred, so this particular case
was not in question during that time because those
crimes had not been committed.
Q Well, were any of these individuals who you asked
them to cooperate, were they charged with robberies,
assaults?
A Some were.
Q Okay. Some robberies, some felonies, some assault
charges are felonies as well?
A Some, yes.
Q Okay. When these individuals spoke were they
represented by Counsel during the interviews?
A If they request Counsel, the interview would then be
stopped and Counsel would be requested for them.
Q I'm asking you at the time they were at the precinct
and you met up with them, were they with attorneys
present at the time?

61a
A No. The time for meeting for their attorneys was not
at that particular time until they request it.
Q At that time they weren't even arraigned on the
charges against them, right?
A That's correct. They would have been still in the
confines of the precinct.
Q Now, the information they gave to you you believed
to be reliable?
A Some, yes. Some completely false.
Q Did you make – the people who you found to be
reliable, did you make them as your agents?
MR. REGAN: Objection.
MR. MALTZ: This is cross-examination, your Honor.
THE COURT: Rephrase.
Q Did any of them become confidential informants for
you?
A Oh, yes.
Q Did – at any time were they paid to give you
information as a result of being confidential
informants?

62a
A No.
Q At any time did you ask them to infiltrate the
organization so they could give you information as they
were working off their case?
A They were – if I remember it was inside, they were
inside.
Q: Were any of these individuals wired?
A No.
Q So you're telling us that some people were in the
organization and they were agents, correct?
A I'm having difficulties when you use the word agents.
I'm not understanding your word agents.
Q We11, were they signed up? Did they get a particular
number as informants? When they are assigned as an
agents they become registered, right?
A Yes.
Q Did any of them become registered?
A Yes.
Q All right. Did any of them testify at a trial or a
proceeding?
A I don't know.

63a
Q All right. These individuals you told us gave
information?
A Yes.
Q They gave you information regarding signs, hand
signs and so forth, the meaning of words and so forth?
A Yes.
Q All right. And this is during the period of 2012, 20
2013?
A Yes. '12, '13, '14, correct.
Q These people still remain in the organization?
A I don't know.
Q Now, there came a time you left – by the way, from
the inception of this case, we are talking about this
indictment came down sometime in September of 2014,
are you aware of that?
A Yes.
Q A1l right. By that time you were no longer involved
with the 13th Precinct, right?
A That's correct.
Q By that time you were in the 19th Precinct?

64a
A Yes.
Q You left early part March of 2014, correct?
A Yes.
Q So you are not involved with this investigation,
would that be safe to say?
A That would be safe to say, yes.
Q So the involvement that Officer Georg, he was
primarily involved and not you in this case?
A Yes.
Q So these accounts that were obtained later on
through subpoena, right, you don't know the nature of
these – of the Facebook accounts, correct?
MR. REGAN: Objection to the form.
THE COURT: Sustained.
Q You know there were a number of Facebook accounts
hat were subpoenaed by the District Attorney's office,
right?
MR. REGAN: Objection. It's not a subpoena.
THE COURT: Sustained.

65a
Q Did you look at any of the Facebook accounts
regarding this case?
A Yes
Q And you looked at all 12, 13 or 14 that were put into
evidence?
A All of them, no.
Q Okay. But before the, indictment came down you
were not aware of these Facebook accounts; is that
correct?
A That is incorrect.
Q Well, you were not involved with the investigation in
this, right?
A That is correct, yes.
Q You were no longer part of the 113 Precinct. You are
now part of the 19th Precinct. You had other duties in
the 19th Precinct, right?
A Yes.
Q Correct?
A Yeah, that's correct. Yes. But the Face book accounts
are still the same Facebook accounts that I earned my

66a
expertise on from 2012 to 2014 regarding this
organization.
Q Okay. But as far as what allegedly happened during
the period Of March 2014, you were not involved in
that investigation, correct?
A That is correct, yes.
Q And you .only became involved in this particular
case sometime down the road, sometime April, May
June, July, 4 2014?
A Yes. I had – all the officers in question, 6 members of
the S.E.T. team as well as Officer Georg, as well as
members of the District Attorney's office, they all
would still contact me and liaison with me regarding
goings-on with regard to the S.N.O.W. Gang due to my
level of knowledge with the organization.
Q Okay. Now, part of your experience you say part of
this organization communicate in different forms,
correct?
A Yes.
Q A lot of it is hand signals, right?
A One of them is hand signals, yes.
Q Now, moving a hand or moving one's finger from one
side to another, that's not a crime, correct?

67a
A No, not at all.
Q Alot of people do that, they moving their fingers from
one side to the other, invert their hand, that's not a
crime, right?
A Not a crime at all.
Q There are a lot of rock stars, pop groups like Fitty
Cent and Beyonce, they do that all the time, right?
They move their hands like this, they give hand
signals, correct?
A I'm going to say no, not the individuals you
mentioned. No.
Q We11, when a pop artist does that, does that mean
that's a member of a gang?
A I don't know what pop artist. My expertise is with 7
S.N.0.W. Gang.
Q Couple of weeks ago when the Mets were at the
World Series and. there were fans doing this and that
and if they were – would that signify to you that they
were gang members if somebody was doing that?
MR. SANTOS: Objection, Judge. Relevance.
A No, sir.
14 THE COURT: Sustained.

68a
Q People communicate at times with their hands,
right? Does that mean that they're members of a
gang,17 organization?
A No, they do not.
Q Now, this group you claim to be a gang, right, do
they have any distinctive clothing, like the Bloods or
the Crips?
A No, that's actually one of the items that made the
stepping into the S.N.O.W. Gang that much more
difficulty for us as a S.E.T. team. We really had to
learn who they were based upon getting embedded
with these particular individuals. There were no
particular clothing that they wore, as you mentioned
earlier, with regards to exclusively for the Bloods or
the Crips, where they all wear certain things or
'aandana on one side. These individuals, they didn't
have that indicator. So that made it extremely difficult
for us.
Additionally, while we were starting the
investigation, we had to go through first and secondary
methods of identifying the individuals. We hadto go
through and really do our due 'diligence to create this
– to find out which ones were in fact true members and
which were people that were just fake jacking, you
know, these things, maybe throw at them an S-N or
laughing my S.N.O.W. ass off. That might be one of
their public posts. We had to actually find out if that
person was a real S.N.O.W. Gang member or if they
were just fake jacking it or lived on the block or just
knew a person from that area, you know. The S.E.T.
team as well as the members of the gangs that jumped
on board with what we were doing, we had to find out
because there was no sole indicator, there was no

69a
clothing thing, no hat, where as members of the Wood
City, sometimes they would be kind enough to make it
easy on us. Some of the outfits they wore, they would
stitch a W on their clothes, which was an indicator to
us that they were Wood City. So it was actually
extremely difficult because of that issue you just
mentioned.
Q I didn't mean to interrupt to ask.
THE COURT: Please stand behind the microphone.
Q So two Black men walking down the street and
saying wood hall, would you suspect them of being
gang members because they happen to be walking
down the street wearing dark clothing or light
clothing?
A No.
Q If they were communicating with each other with
hand signals, would you think that they were gang
members because of that?
A No.
Q What if it were five people walking down the street
wearing clothing, would that mean that they're gang
members?
MR. SANTOS: Objection.
THE COURT: Sustained.

70a
MR. MALTZ: May I ask why, your Honor?
THE COURT: Sustained. Move on.
Q So do we agree then it's not so much the manner of
dress, right, that would trigger your attention, right,
the dress?
A The dress would not be indicative.
Q The hand signals not sufficient, right, not enough?
A Based on solely that, no.
Q Okay. Conversation maybe between people that
would trigger something you're saying?
A If the corresponding hand signals, that I may or
may not have seen, that would be a tipping point and
that would pique interest in terms of who that person
was, if I didn't know who that individual was already.
I walk down the area of Rochdale Village during my
time employment in the 113 Precinct, if I go down
Rochdale Village, Guy R. Brewer, Farmers Boulevard,
Springfield, I – from being there from my period of
time, I knew who many of the individuals were
beforehand. I knew their Government names, I knew
where they lived, their mother's names and their call
signs, their signals. So if they did those things, coupled
that with a hand signal, couple that with their manner
of speech, couple that with whomever they may be
speaking to, that would be the indicators that we
would use.

71a
Q I want to get to there is a distinction, right, between
having words, conversation with people and action,
would you agree?
A Certainly.
MR. REGAN: Objection.
THE COURT: Overruled.
Q Did you answer the question or you didn't?
MS. THEODOROU:. He did.
Q There would be a distinction between having a
conversation with people, showing outrage, emotion
and action, would you agree?
A Yes.
Q Okay. Now, one last question. While this case was
going on you did have opportunity to speak to the
prosecutors in this case, right?
A While the case was going on, yes.
Q Would you say you spent countless hours with them,
many hours with them discussing this case?
A Yes.

72a
Q Reviewing the records with them?
A Reviewing?
Q Records, Facebook records with them?
A Yes.
Q And you – they told you what kind of questions they
were going to be asking you, right, what evidence they
intend to put into evidence, correct?
A Yes.
Q So you went over that with them, would you say
hours with them, days with them because you testified
today?
A Over the course of the last several months I spent
many hours going over the information, much of the22
information that was produced for the indictment was
cultivated by myself and members of my S.E.T. team.
So they had to verify, they also had to reach out to me
and ascertain why -a piece of evidence that I would
have introduced, why I at the time found Chat
particular thing to be material to the case.
Q Let me ask you another question before I leave the
post. Tattos, also. Would that be just because
somebody has a tattoo across one's body does that
mean that they are a gang member?
A Depends what that tattoo is.

73a
Q What about just markings on the body, is that a sign
to you?
A If the markings are indicative of a gang that would1
lead me to believe that they are members of a potential
gang, yes.
Q Other than making signs or making references to a
particular group, just having a marking on one's own
body, that doesn't make somebody a gang member,
right?
A Describe the marking you are attempting me to
identify.
Q Well, markings. I don't have tattoos on my body, but
a man having a tattoo on one's face or one's arms
would that be a sign to you, a signal to you that
somebody is -THE COURT: All right. Mr. Maltz, the question,
phrase it specifically, not a general type question that
can't be answered.
MR. MALTZ: Well, you didn't interrupt the officer
when he testified. 1 will make it clear.
MR. REGAN: Objection.
THE COURT: Sustained and stricken. Stand behind
the microphone, please.
Q The fact that a person may have •a visible tattoo,
walking down the street, with several Black men in the

74a
street, communicating by hands, does that mean the
person is a gang member?
MR. SANTOS: Objection.
THE COURT: Sustained as to the form of the
MR. MALTZ: All right. I have nothing further. Thank
you.
THE COURT: Miss Potman.
MS. POVMAN: Just a few questions. Really a few.

CROSS EXAMINATION
BY
MS. POTMAN:
Q Lieutenant, you told us that you joined the S.E.T
Unit about November of 2012; is that correct?
A Yes.
Q And do you know what date you went to the 19th
Precinct?
A I believe it was March 28th of '14.

75a
Q Now, you told us that in investigating these crews or
gangs that they were aligned by geographic locations?
A That would be the most often common denominator.
Q When you say aligned by geographic locations, if you
lived on a particular block it's likely that you would
belong to a particular gang?
A No, not belong to. They would --if and when you
decided to join a gang, if you made that particular
terrible decision, you would most likely join the gang
that primarily operated on that particular block.
Q Okay. Now, you told us on Thursday that your
expertise is based on viewing Facebook records; is that
correct?
A That is one of the methods, yes.
Q And another method is your interviews, your postarrest interviews of 50 alleged members of the
S.N.0.W. Gang?
A Yes.
Q Now, these post-arrest interviews would take place
at the precinct?
A Yes.

76a
Q And they would take place prior to the arraignment
of the individual on the charges for which they were
arrested?
A Yes.
Q So that you were able to interrogate them without
having an attorney present?
A No. We never did the actual interrogation.
Q Well, what is the difference between a debriefing
and interrogation?
A Oh, I'm glad you asked. Well, actually an
interrogation is, if I have Mr. Regan to be a suspect in
regards to a particular crime, I will question him or, as
you mentioned, interrogate him, attempting to gain
fruits of a crime for which he has currently committed
or I suspect him having committed on that particular
day.
The debriefings, as we would conduct them in
1.1 regards to this investigation, they were more factfinding, to find out in terms of who individuals were
and to identify other members of – that operate within
the a particular gang. At no time were any Rico
charges being brought against these particular
individuals, so the actual – being a member to a
particular gang was not circumstantial against
themselves. So our jobs during the debriefings, it was
more of a fact finding issue. Personally what I would do
is, I would attempt to try to spend time with an
individual to get to know them on a more personal
level, who's just straight out of their minds and just a
bad guy versus who is in a gang perhaps because they
live in a particular area and kind of has a heart or God
forbid there was some true violence that did occur you

77a
know this particular gang or other gangs did commit,
I would try to find out who these people were on a more
casual level to be able to speak to them, find out what
the avenues might be for them to potentially get out of
this gang and go forward. I would speak to these guys.
Q You would try to befriend them?
A I would maintain a level of empathy, extreme level
of cordialness with these particular individuals. That's
the main difference.
Q Being a member of a gang is not a crime in New
York State?
A No. No, it's not.
Q So the people that you spoke to in the precinct were
people that were charged with crimes?
A Yes.
Q And they spoke to you in the hope of getting a lesser
sentence?
A Some of them. Some just spoke because they didn't
want to be stuck with a stinky perpetrator that was in
the holding cell with them. So that's an opportunity for
them to perhaps have a bite, have a cigarette and to
just talk to a person.
Q And you cannot make a promise as to what a
sentence would be on a particular case, right?

78a
A I do not have that authority.
Q So that all you could do, on each of these occasions,
was promise these people that you would talk to
*

*

*

Lt. Bracero - People - Cross (Mr. Santos)
Q I understand you want to answer. Do you want to
answer my question?
Do you remember how many – my question to
you, do you remember – this is the question. How
many 16 year olds did you speak to to get your
expertise?
A I do not know the answer.
Q How many 17 year olds did you speak to to get your
expertise?
A We can continue saying ages. I don't know the exact
number per age.
Q So are you going to let me continue?
A If you like to.
Q Okay. I appreciate it. Thank you?

79a
A You're welcome.
Q How many 18 year olds did you speak to to get your
expertise?
A I do not know the answer.
Q How many 19 year olds did you get to speak to to get
your expertise?
A I do not know the answer.
Q Now, would it be fair to say that the vast majority of
these 15 to 19 year olds who you did speak to, but you
don't remember how many there were, were black,
correct?
A That would be correct, yes.
Q And they live in our – in our – in my client's
neighborhood, correct?
A I work in the 113th Precinct. That's where the
residents are predominantly black, yes.
Q I'm not asking if they're black or not. I'm not asking
that question. You are being asked predominantly
black. I'm asking if these individuals who you
debriefed that you used to get your expertise live in my
client's neighborhood, correct?
A Yes.

80a
Q And now the way that you debriefed them is that
-- I know you said-- withdrawn. Would it be fair to say
that some of the tools that you use to debrief, not
interrogate, these 15 to 19 year olds, debrief these
individuals is fear?
A No.
Q No.
So you don't roll up on these 15 to 19 year olds
with your fellow officers on the Street corner and throw
them against the wall?
A No.
Q. You don't do that?
A I do not, no.
Q And you don't bring them back to the precinct, right,
to interrogate them or-- excuse me -- debrief them?
A I do not, no.

81a
Lt. Bracero -People - Cross (Mr. Strachan)
the S.N.O.W. Sang?
A Yes.
Q And you had mentioned--you testified in the Grand
Jury in this case, correct?
A I think so. I'm not positive.
Q Okay.
A I think so.
Q Okay. Do you remember? I mean, do you remember?
A It's been going on for this long, I don't remember. I
think so.
Q Do you remember how many times you testified in
the Grand Jury?
A This particular case?
Q Yes.
A I don't.

82a
Q Okay. Now, do you remember these fact-finding
meetings? You said on direct that you did hundreds, is
that correct?
A Yes.
Q Now, I'm just a bit confused. When you say
"hundreds", I'm not sure exactly what that means. Do
you know exactly how many debriefing meetings you
have done regarding the S.N.O.W Gang?
A Exactly, no.
Q Okay. So you don't know if a hundred is a hundred
or two hundred or if it's 999? You can't tell us exactly
how many meetings you have conducted?
A I can't tell you the exact number, no.
Q Okay. You can't. And this is a pilot program?
A Yes.
Q And when you are doing these debriefings, you are
usually at the 113th Precinct, correct?
A Yes.
Q And you walk in there, would you do the debriefing
at the Detective Squad Unit or the Detective Squad
Interview Room? Where would you do it?

83a
A Sometimes – sometimes – most often we would do it
in other. rooms, in the field intelligence office or our
own S.E.T. office.
Q And when you are doing these debriefings, say in the
S.E.T. office, how big it that room?
A 15 by 20 feet.
Q It's not that big?
A No.
Q Okay. And would you have a desk in there?
A Yes.
Q With a couple of chairs?
A Several desks; several chairs.
Q When you are debriefing someone, is it just you and
the person you are trying to get some facts from or do
you have a whole group of officers in there?
A Usually, it would be between two and three officers,
as well as the individual that we're speaking to.
Q Okay. So it's the person you are speaking to, you're
in a room, and there's about three officers there,
correct?

84a
A Yes.
Q That would be the typical set-up for debriefing?
A Yes.
Q And the purpose of it, of course, is to get some
information?
A Yes.
Q About the S.N.O.W. Gang?
A Among other things, yes.
Q What other things –well, let me rephrase that.
When you are talking to them, are you writing down
any notes?
A Sometimes, but very infrequently.
Q Are the other officers writing down any notes?
A Not typically.
Q You say you are writing down notes sometimes?
A Yes.
Q Now, when you are speaking to them, do you have a
tape recorder there?
A No.

85a
Q Okay. Do you have a video camera there?
A No.
Q You can't tell us exactly the number of these
debriefing meetings you have actually done regarding
this?
A A specific number, no.
Q And if I ask you, well, Lieutenant, on this date, what
was the fifth question you asked this person that you
were debriefing, you wouldn't be able to answer that?
A No, there's no recording of that. Debriefings are not
a recorded technique.
Q Well, the question is, if I asked you Sergeant –
Lieutenant, on this date that you were debriefing
somebody, what was the fifth question you asked then,
you wouldn't be able to answer that?
A That's correct.
Q Okay. If I asked you, what was the tenth question
you were asking, you wouldn't be able to answer that?
A That's correct.
Q If I asked you on that particular date that you were

86a
debriefing this person, what was the total amount of
questions you asked this person, you wouldn't be able
to answer that?
A No. It would be an open dialogue.
Q But you wouldn't be able to answer that question?
A I would not be able to answer that, correct.
Q And this is a pilot program?
A Debriefings are something they've been doing as part
of the pilot program. Debriefings are something that's
done.
Q It's something that you have done in this pilot
program?
A Yes.
Q And, of course, during your direct examination -- I
mean direct examination for the prosecutor – you
testified that you gained an understanding of the
S.N.0.W. Gang members and terminology, is that
correct?
A Yes.
Q And, of course, the fact that there's no tape or video
for the jury here, we have no way to corroborate
whether or not you actually do have an understanding

87a
of the S.N.O.W. Gang members. There's no video or
tape of you conversing with a S.N.O.W. Gang member
indicating that you actually do understand, is that
correct?
A I don't believe so.
Q And there's nothing there to show that this alleged
S.N.O.W. Gang member actually understands you, is
that correct?
A Correct.
Q If I asked you – by the way, I mean, you said
hundreds of these – hundreds of these debriefing
meetings, and I say to you, Lieutenant Bracero, on the
98th debriefing meeting you had with an alleged
S.N.O.W. Gang member, what was the – what was the
tone in which you were speaking to this person, you
wouldn't really be able to answer that question, am I
right?
A I would say probably consistent with the other
hundreds, and they're all the same.
Q And your saying your tone is the same?
A My tone is the same, yes.
Q And, of course, there's no tape or video to
independently corroborate what you would say what
your tone is, correct?

88a
A It's the same. Correct.
Q We don't know whether or not it got heated and you
were yelling at someone? We don't know that?
A That would be accurate.
Q We don't know whether or not you are calm like you
are here now?
A Yes. We don't know that. Did you provide any food to
the people that you were debriefing?
MR. REGAN: Judge, I'm going to object.
THE COURT: Read that back.
(Whereupon, the pending question was read back by
the Court Reporter.)
THE COURT: Sustained.
Q The fact that there's no audio or videotape of any of
these debriefings, we don't know how long these
debriefing meetings actually took place?
A Correct.
Q Okay. We don't know that the information that you
claim you got through these debriefings happened at
the end of the meeting, the middle of the meeting, or at
the beginning of the meeting, correct?

89a
A Correct.
Q We don't know what promises or threats you may
have made, correct, because we don't have the audio or
video of these meetings?
A It was asked of me.
Q Excuse me? I didn't hear you.
A It was asked of me. There was none.
Q But we don't have video or audio to corroborate it?
A Correct.
Q Lieutenant, do you have a cell phone?
A Yes.
Q Okay. Isn't technology wonderful nowadays?
MR. REGAN: Objection.
THE COURT: Sustained.
Q You are aware that you can record someone using a
cell phone, correct?
A Correct.

90a
Q You are aware that you can take •a photo of
someone, correct?
A Correct.
Q You can take a video of someone using a cell phone,
correct?
A Correct.
Q By the way, in these debriefing meeting rooms, was
there a video camera in the room?
A No.
Q Okay. By the way, where is the equipment room in
relation to where you were debriefing these people?
A There is no equipment room.
Q There's no place where you can get a video camera or
something like that?
A The Detective Squad has a room for all felony
assaults which they record all debriefing interviews.
Q And did you ever do these debriefings in the
Detective Squad Room?
A Sometimes.

91a
Q Okay. And there was a video camera there?
A They were not in for assault, for felony assaults.
Q But there was a video camera?
A I’m trying to remember whether we used the video
room. There's more than one room in the Detective
Squad. I'd say one or two took place in the video room
but not with it being videoed or recorded.
Q Okay. And it wouldn't take much to talk to your
brother officer and say, can I borrow your recorder, I
want to record this?
MR. REGAN: Objection.
THE COURT: Sustained.
Q By the way, these people that you are speaking with,
these people during the debriefing meetings, as it's
been mentioned earlier, a lot of them were young black
males, correct?
A Correct.
Q And before starting the debriefing, did you get any
information on whether they were on drugs when you
were debriefing them?
A No.

92a
Q Did you get any information on whether they were
drunk when you were debriefing them?
A I can only state my observations, the same way I
would in any kind of law enforcement capacity based
on my prior knowledge and experience whether a
person was intoxicated or under the influence of a
narcotic or alcohol, and none of them at the time
appeared to be any of these.
Q You didn't do a breathalyzer test before you
debriefed them?
A No, I did not.
Q Did you look into their – did you do any--when you
were debriefing these young black men, did you ask
any of them about their educational background as far
as like, as they on the regular track or maybe they’re
in Special Education?
A Some of them I would ask, yes.
Q Okay. And did you find out whether or not they had
any mental impairments?
A None of the individuals I spoke to had any mental
impairments.
Q You asked some of them if they were in Special
Education but you didn't ask all of them, correct?

93a
A Not Special Education. You asked about normal
track for graduation. I would ask them questions
along those capacities, as well as highest grade that
they had attained and what they’re doing with
themselves educationally, employment-wise, et cetera.
Q But you didn’t ask them if they were in Special
Education?
A No. Seems to violate their civil rights.
Q I'm just asking you, did you ask them if they were in
a Special Education class when they were in school?
A That was not one of my line of questions, no.
Q Did you ask them if they were taking any
medications?
A No.
Q And since you didn't ask them if they were taking
any medications, you didn't ask them if they were
taking any psychotropic medication for mental illness?
MR. REGAN: Objection.
THE COURT: Sustained
MR. STRACHAN: May I have a moment:
THE COURT: Yes

94a
(Short pause.)
MR. STRACHAN: Thank you, Judge.
Q Lieutenant, can you tell me the date, the actual date,
that you did your first debriefing regarding the
S.N.O.W. Gang?
A No.
Q Can you tell me on that first debriefing exactly how
long it took as far as time?
A No. The first interview that we did, I recall --I
remember doing regarding the S.N.O.W. Gang actually
did involve a group of juveniles as was asked earlier,
15 year olds, and those were victims of a robbery.
Q I didn't ask about all that. I'm asking –
A I'm going to give you the time.
MR. REGAN: Objection. He's answering the question.
MR. STRACHAN: He's not answering my question.
Q I'm asking you, when was the first time you did a
S.N.O.W. Gang but then I'm also asking you, how long
did it take place? I just asked as far as time, how long
did the interview take place?

95a
A The point being it wasn't a debriefing, it was an
interview of a civilian.
Q How long did it take place -A Two hours.
Q – is the question?
A Two hours.
Q Two hours. And how many people were actually in
the room?
A There were three civilians, myself and two other
officers.
Q Now, you testified in the Grand Jury regarding this
case, correct?
A I think so but I'm not positive whether I did or not.
MR. STRACHAN: Can we stipulate that he did
testify in the Grand Jury?
(Short pause.)
Q Oh, you didn't testify in the Grand Jury?
A Okay. Then – I didn't think so.

96a
Q I'm just asking you.
A Yeah.
Q Do you know when the date exactly that Dane'e Cato
was a member of the S.N.O.W. Gang?
A No.
Q Okay. Do you know when someone joins the
S.N.O.W. Gang, do you know how much time is spent
being a low level S.N.O.W. Gang member and how you
get promoted to a high ranking County District
Attorney's Office that would make it a easier to
understand some things about the S.N.O.W. Gang?
A Yes.
Q Did you turn that over as well?
A Yes.
Q Thank you.
MR. MUCCINI: I have nothing further.
Q Thank you, Lieutenant.
A Thank you, sir.
THE COURT: Mr. Regan, anything?

97a
MR. REGAN: Yes.
REDIRECT EXAMINATION
BY MR. REGAN:
Q Good morning, Lieutenant.
A Good morning.
Q Lieutenant, much has been made by several of the
attorneys on cross-examination about the methods
used to debrief S.N.O.W. Gang members after arrests.
Do you remember that?
A Yes.
Q You stated there's a difference between a debriefing
and an interrogation, is that correct?
A Yes.
Q Please explain to the jury so it's clear. What is the
difference between an interrogation of an arrestee and
a debriefing of an arrestee?
A Yes. In regards to an interrogation, interrogation is
utilized where you are trying to garner information
relevant to the particular charges that you have been
charged with. Case in point, if they were caught in
possession of a firearm, if afterwards when you're
brought back to the precinct you would be given your
Miranda rights, your right to an attorney, your right to

98a
speak to the N.Y.P.D., et cetera, whereas you indicate
whether you understand these rights or not, and then
you are asked if you indicate yes, you do wish to speak,
you would then be asked questions directly related to
the charges against you at that particular time. Those
you see in movies, anything you say can be used
against you in a court of law, that is in regards to an
interrogation.
The debriefings, on the other hand, that we
conducted, most of the times that we brought these
individuals in, the questions – let me rephrase that -any time we conduct a debriefing, there was already
probable cause for an arrest and any of the information
that we garner from them and any questions that we
asked of the individuals were not material to those
particular charges that were brought against them
that particular day. That's why we use it as more of a
fact-finding mission, as well as to get information
against potentially other members of their gang, as
well as rival gangs, any like past crimes they may have
information on.
Q So it's fair to say you are also looking to get
information to be used against that particular arrestee
in that case, correct?
A That's correct.
Q Talking about interrogation; in the Police
Department, whose job is it typically to interrogate a
suspect about their current charge?
MR. MALTZ: Objection.
MS. POVMAN: Objection.

99a
MR. SANTOS: Objection.
MR. STRACHAN: Objection.
MR. MUCCINI: Objection.
THE COURT: Overruled.
A It's the detective, Someone from the Detective
Bureau, whose job it is.
Q And is that a person in your S.E.T. team?
A No, we do not have any detective investigators in the
S.E.T. team at the time.
Q So you have a different goal than an interrogator,
correct?
A That's correct.
Q And, again, what's your goal in speaking to a person
under arrest?
MR. MUCCINI: Objection.
MR. MALTZ: Objection.
THE COURT: Overruled.

100a
A I'm sorry; Could you rephrase?
Q You said your target was the S.N.O.W. Gang?
A Yes, that’s correct.
Q That wasn't the only S.E.T. (sic) though, right?
A The only crew?
Q The only crew.
A That was not the only crew in Queens.
Q Why was the S.N.O.W. Gang a target as. opposed to
all the other gangs?
MR. MALTZ: Objection.
MS. POVMAN: Objection.
MR. SANTOS: Objection.
MR. STRACHAN: Objection.
MR. MUCCINI: Objection.
THE COURT: Overruled.
A Their history of violence.

101a
MR. MALTZ: Objection, your Honor. I have an
application.
MS. POVMAN: Move to strike.
MR. MALTZ: Application for mistrial based upon that
improper comment.
MR. REGAN: Judge, Mr. Maltz asked directly -THE COURT: Overruled.
Q With regards to social media, were you just
*

*

*

Det. Georg - People - Direct
A S.N.E.U.
Q S.N.E.U.
And when you were assigned to S.N.E.U, who
was your supervisor?
A Sergeant Bracero.
Q Has he since been promoted?
A Yes.

102a
Q What is he now?
A Now, he is Lieutenant Bracero.
Q When you were working under Sergeant Bracero,
again the same question, did you have any exposure to
gangs or gang activity?
A Yes.
Q What gangs were you exposed to?
A Again, the same gangs that I had mentioned and
also narcotics gangs that were involved in street level
sales of crack, heroin, all those street narcotics.
Q You stated you were then assigned to the S.E.T.
team, correct?
A Yes.
Q When was that?
A That was in October of 2012.
Q Is that when the team was formed?
A Yes.
Q And who was your supervisor when you were
assigned to the S.E.T. team?

103a
A Again, that was Sergeant Bracero.
Q And what were your duties or responsibilities when
you were assigned to the S.E.T. team?
A We were assigned to monitoring the S.N.O.W. Gang
in the 113.
Q What did you do on a day-to-day basis when you
were assigned to the S.E.T. team in 2012?
A We conducted surveillance of known S.N.O.W. Gang
members.
MR MALTZ: Objection to what "we" did.
Q What did you do?
A I conducted surveillance of S.N.O.W. Gang members,
enforcement in neighborhoods where S.N.O.W. Gang
activity was reported. I conducted debriefings,
monitored social media and Rikers telephone calls in
order to gain intelligence on the group.
MS. POVMAN; I'm sorry? The witness's voice is
dropping.
THE COURT: Please speak loudly. Move your chair up
and speak loudly.
Q You can put that binder down. That might help you.
A (Complies.)

104a
Q You stated you monitored telephone calls. What kind
of telephone calls?
A From Rikers Island Correctional Facility
.
Q You also stated you were conducting enforcement in
certain neighborhoods?
A Yes.
Q What neighborhoods were they?
A It was within the confines of the 113th Precinct area
near Rochale Village and Springfield Gardens.
Q You stated that you observed or monitored social
media?
A Yes.
Q Explain, to the jury how you did that.
A Using Facebook we would – I would monitor known
S.N.O.W. Gang members' social media accounts, as
well as rival gangs in order to keep track of possible
bragging about previous crimes or disputes that were
going on between rival gangs and gang members.
Q You were assigned to the S.E.T. team until when?
A Until March of 2013.

105a
Q So from the time of 2012 when you were assigned to
March of 2013, were you doing this same activity,
reviewing social media?
A Yes.
Q How often would you do that during that time?
A Daily.
Q So did you – you stated you finished working there
in 2013, in March of 2013. Where were you assigned
after that?
A Queens Gang Squad.
Q And tell the jury, did you – when you were
reassigned, what was your focus in your new position?
A My initial assignment in the Gang Squad was in the
Rockaways, the 101st Precinct in Queens.
Q And then did that change?
A Yes.
Q When?
A In May in May of 2013.
Q What was your assignment after May of 2013?

106a
A I was assigned to the – the monitoring covering the
113 Precinct, specifically acting as a liaison for matters
involving the S.N.O.W. Gang.
Q Is there a reason why you were moved?
MR MALTZ: Objection.
MS. POVMAN: Objection.
THE COURT: Rephrase.
Q Did you learn the reason why you were moved?
MR WALTZ: Objection.
MR. SANTOS: Objection.
MS. POVMAN: Objection.
MR. MUCCINI: Objection.
MR. STRACHAN: Objection
THE COURT: Overruled.
A I was moved following a homicide which occurred in
the 113 that -MR MALTZ: Objection.

107a
THE COURT: Overruled.
A --that had ties to the S.N.O.W. Gang.
MR. SANTOS: Objection. Move to strike.
THE COURT: Overruled.
MR MALTZ: Objection.
Q When you returned in --excuse me --when your focus
shifted in May of 2013 while still with the Gang Squad,
what did you do on a daily basis from that point
forward?
A Very similar to the things that I described earlier.
We focused on street level enforcement in
neighborhoods where S.N.O.W. Gang members were
known or believed to associate, conducted debriefings
of resident S.N.O.W. Gang members and other gang
members, interviewed confidential informants and
victims of crimes that were believed to be committed by
the S.N.O.W. Gang members, continued to monitor
social media and Rikers' telephone calls.
Q Again, in that capacity when you were at the Gang
Squad and from Nay of 2013 up until the present, how
often would you review S.N.O.W. Gang social media?
A Every day on a daily basis.
Q How is it that you were able to observe the postings
by members of the S.N.O.W. Gang on Face book?

108a
A I as a member of the S.E.T. team continued to use a
surreptitious Facebook account wherein it was linked
to S.N..O.W. Gang members and others.
Q So you would friend members of the S.N.O.W. Gang?
A Yes.
Q And was that fictitious account or surreptitious
account – did you actually make postings on that?
A I'm sorry, can you repeat that?
Q Did you actually make postings on that account?
A At times.
Q And how often would you use that account to
observe. S.N.O.W. Gang members and their activities
on social media?.
A On a daily basis.
Q Did you conduct or – excuse me --withdrawn. You
stated that you conducted observations in a previous
time when you were assigned to the S.E.T. team. Did
you continue to do that in the Gang Squad?
A Yes, that's correct.
Q What areas did you do that?

109a
A Again, in Rochdale Village; Springfield Gardens and
Laurelton as well.
Q Going back to the Facebook surreptitious account,
would you friend people from the S.N.O.W. Gang on
Face book?
A Yes.
Q So you would send a friend request?
A Correct.
Q Were they free to accept or reject that?
A Yes.
Q Did you assist in obtaining any search warrants
either for physical locations or for social media
accounts?
A Yes.
Q Both?
A Yes, both.
Q Speaking specifically about the social media
accounts, did you review the results of those warrants
prior to 2014 regarding members of the S.N.O.W.
Gang?

110a
A Yes.
Q Specifically whose accounts did you review prior to
2014?
A Dionne Milling and Lynnard Biggs.
Q Have you ever conferred with other officers in the
Police Department who were assigned to investigate
the S.N.O.W.Gang?
A Yes.
Q What officers did you confer with?
MS. POVMAN: I can't hear, Judge.
THE COURT: I'm sorry?
MS. POVMAN: There's something going on in the
hall. I can't hear.
THE COURT: There's something going on with what?
MS. POVMAN: There1s noise in the hallway. Gary is
checking.
(Short pause.)
THE COURT: All right. Please continue.

111a
Q I believe I asked you about the officers you conferred
with in regards to the S.N.O.W. Gang. What officers in
particular did you speak with?
A Detective DeFiore, Sergeant Bracero, various
members of the different precincts detective squads.
Q And Detective DeFiore – excuse me – was it Officer
DeFiore or Detective?
A It's detective now; it was officer.
Q And was he investigating the S.N.O.W. Gang as
well?
A Yes.
Q And did he also, to your knowledge, obtain Facebook
accounts of S.N.O.W. Gang members?
A Yes.
Q Did you have occasion to either review those or
discuss those with him?
A Yes.
Q What kind of information was shared with you from
these other detectives or sergeants in regards to the
information they had on gang members?

112a
MR. STRACHAN: Objection.
MR. MUCCINI: Objection.
MS. POVMAN: Objection.
MR MALTZ: Objection.
MR. SANTOS: Objection.
THE COURT: Overruled as to the kind.
A They would -MR MALTZ: Objection.
THE COURT: Overruled.
A They would share information regarding gang
language, any gang structure that they learned of,
meeting locations, things of that nature.
Q Did you ever receive any classroom training or
formal training in relation to gangs?
A Yes.
Q Can you describe that for the members of the jury?
A In the Police Academy as a recruit we all go to
training where we are in the classroom training in

113a
identifying common gang signs and colors and things
like that.
Later when I was transferred to the Gang Unit
– let me back up.
When I was assigned to the S.E.T. team, we
went to further trainings on surveillance techniques
and again further ways to identify gang members.
When transferred to the Gang Squad I was in a
month-long training. Among other things we were
trained in identification and the prosecution of gang
members.
As a member of the Gang Squad now I
semi-regularly go to conferences and' other training
where you learn the trends of gang membership and
identification, how they're changing and better ways
of identifying gang members.
Q Did you have occasion based on your assignment
over the last three years to investigate any rival gangs
to the S.N.O.W. Gang?
A Yes.
Q What gangs were they?
A The Wood City and 40 Projects or 821 Gang.
Q What investigative techniques did you utilize in
order to learn about those gangs?
A Those gangs, again, street level enforcement in the
neighborhoods where they're known to congregate,
interviewing of victims that may have been victims of
crimes in those neighborhoods, reviewing social media,

114a
listening to jail calls, speaking to confidential
informants, things of that nature.
Q Did you get warrants for several of the rival gang
members' social media accounts?
A Yes.
Q Did you review the contents of those?
A Yes.
Q Have you ever been declared an expert with regards
to the S.N.O.W. Gang?
A Yes.
*

*

*

Det. Georg - People - Direct
sentence.
MR. REGAN: I have read the case law. I understand.
THE COURT: You are all familiar with the case.
MR. SANTOS: That's why we read it.
MR MALTZ: Join.

115a
MS. POVMAN: Join.
MR. MUCCINI: Join.
MR. STRACHAN: Join.
(Whereupon, the following took place in open court:)
(Continued direct examination by Mr. Regan.)
Q. Detective, you were asked by Mr. Maltz, the first
attorney who came up, about your history of
assignments in the Police Department. Do you
remember that?
A Yes.
Q And you were asked, you know – well, withdrawn. It
was stated to you and you were asked, did you go
directly from the Police Academy to the Gang
Intelligence Unit. Do you remember that?
A Yes.
Q Does any police officer go directly from the Police
Academy to a specialized unit like that?
MR. SANTOS: Objection.
THE COURT: Overruled.
A No, they don't.

116a
Q. Where are police officers assigned after the
Academy?
MR. SANTOS: Objection.
THE COURT: Overruled.
A To patrol.
Q Did that happen to you?
A Yes.
Q Mr. Muccini was asking you about how many C.I.s
you spoke to with respect to the S.N.O.W. Gang. Do
you remember that?
A Yes.
Q And you answered the questions. He was talking
about confidential informants or debriefings.
What’s the difference between a C.I. that you are
speaking to and a debriefing that you conduct?
A Um, a C.1., which stands for confidential informant,
is an individual that is officially registered in the
Police Department or District Attorney's Office who is
providing information either for in regards to an open
case that they may have or it could be for monetary –
you know, for paid consideration or just out of their
own, you know,, civic duty. But those people are

117a
registered with the department and have an
agreement to work with us.
Q How about debriefings?
A Debriefings would be speaking – it can be speaking
to an individual when they're arrested or not, whether
they're a victim.
So say a S.N.O.W. Gang member or a rival gang
member were to get arrested, we would respond as
members of the Gang Unit and ask them questions
about themselves; their role, they're gang membership,
et cetera, et cetera.
Q About how many C.I.s did you work with or speak
with regards to the S.N.O..W. Gang?
A As I said, it would be less than five. I don't know the
exact number but –
Q How about how many debriefings did you conduct in
the course of your investigation into the S.N.O.W.
Gang?
A Over 50 at least.
Q How many separate – withdrawn.
How many of those debriefings involved actual
members of the S.N.O.W. Gang?
A. That's what I was referring to, over 50.

118a
Q Over 50 members?
A Yes.
Q How many specific debriefings did you do?
A (No response.)
Q Generally?
A Again, it would be hard with a number but -I don't know, maybe 70 or 80.
Q I want to direct your attention to the period leading
up to March of 2014. Where were you assigned during
that time?
4 A At the Queens Gang Squad.
Q What was your focus or your primary responsibility
around that time?
A I was assigned as liaison in regards to the S.E.T.
team, that means in regards to the S.N.O.W. Gang.
Q A liaison to who?
A S.E.T. team in regards to the S.N.O.W. Gang.

119a
Q What was your job when you were acting as a liaison
between the S.E.T. team and the Gang Squad? What
did you do?
A I would – again, I would conduct street level
enforcement in areas where the S.N.O.W. Gang is
known to congregate. All the things I stated earlier.
Debriefing any prisoners that are identified as
S.N.O.W. Gang members or other rival gangs. I would,
again, monitor social media, listen to jail calls. And in
addition to that we would share information back and
forth between myself and the S.E.T. team and the
precinct detective squads.
Q You stated that you did enforcement and- did other
activities with regard to the S.N.O.W. team and their
rivals?
A Yes.
Q. Who was the S.N.O.W. Gang primary's rival until
early 2014?
Q Did you work the next day March 31st?
A No.
Q When was your first day at work after the murder of
Khalil Bowlin?
A April 1st.
Q April 1st, 2014?

120a
A Yes.
Q Do you remember what day of the week it was?
A It was a Tuesday.
Q What time did you start work that day?
A Approximately 3:30 p.m.
Q Did you review any social media between the time
you learned about Red's death --withdrawn. You stated
that you reviewed social media after you learned of
Red's death. Did you continue to do so up until that
Tuesday when you went back to work?
A Yes.
Q Where were you working at that time on April 1st,
2014?
A I'm sorry? Physically?
Q Physically.
A We were located in the 105th Precinct satellite
where the Gang Office is located.
Q Where is that, in Queens?
A That's in Rosedale.

121a
Q At the time you were assigned to the Queens Gang
Squad; correct?
A Yes.
Q About what time did you get to work that day?
A I believe approximately 3 p.m., 3:30 p.m.
Q What did you do when you got to work?
A We -MS. POVMAN: Objection to "we".
MR. SANTOS: Objection.
MR MALTZ: Objection.
MR. MUCCINI: Objection.
MR. STRACHAN: Objection.
THE COURT: Sustained as to "we".
Q What did you do when you got to work? What did
you do?
A I discussed with other officers what had been going
on with regards to gang violence and discussed, you

122a
know, what our plan should be for the day as far as
enforcement-wise.
Q Okay. And did you anticipate anything as a result of
Red's death?
MS. POVMAN: Objection.
MR. SANTOS: Objection.
MR. MUCCINI: Objection.
MR MALTZ: Objection.
MR. STRACHAN: Objection.
THE COURT: Sustained.
Q In your – having been qualified as an expert given
what you have previously seen with regard to the
S.N.O.W. Gang, did you anticipate anything occurring
after Red had been killed?
MR MALTZ: Objection.
MS. POVMAN: Objection.
MR. MUCCINI: Objection.
MR. SANTOS: Objection.

123a
MR. STRACHAN: Objection.
THE COURT: Overruled.
A Yes, due to the – you know, my knowledge of the
S.N.O.W. Gang and their reputation as retaliation.
MR MALTZ: Objection.
MS. POVMAN: Objection.
MR. SANTOS: Objection.
MR. MUCCINI: Objection.
MR. STRACHAN: Objection.
THE COURT: Overruled.
A Their reputation is retaliation in incidents such as
this. Combined with what I had seen on the social
media and the gang affiliations that were involved, I
had anticipated there to be some sort of retaliatory
violence in retaliation for Khalid Bowlin being killed,
as well as Terrence Julmice being shot.
MR. SANTOS: Objection.
MR MALTZ: Objection.
MS. POVMAN: Objection.

124a
MR. STRACHAN: Objection.
MR. MUCCINI: Objection.
THE COURT: Overruled.
Hold on.
Ladies and gentlemen, it is 20 to 1 now. We're
going to break for lunch. I'm going to ask you to come
back at 2:30. During the luncheon recess you are not
to discuss the case among yourselves, nor with anyone
else. You are not to form or express an opinion as to the
defendant's guilt or non-guilt. You are not to view or
listen to any media coverage of the case. In the event
that it is reported, you are not to discuss this case with
– on social media. If approached by any reporters, you
are not to respond to any questions they may have.
Have a very good lunch. We'll see you at 2:30. Please
take the jury out.
THE COURT OFFICER: Jurors, please rise and follow
me please.
(Whereupon, the jurors exited the courtroom, and the
following occurred:)
THE COURT: All right, Detective, you may step down.
You are directed to.return at 2:30. You are not to
discuss your testimony with anyone.
THE WITNESS: Yes.

125a
MR. REGAN: Judge, I do need to discuss his testimony
because in light of your rulings of all of these exhibits,he's still on direct examination and in light of your
ruling he needs to authenticate the exhibits.
THE COURT: Only pertaining to exhibits that will be
coming in that I made rulings on. Same bail conditions.
MR. REGAN: Thank you.
(Lunch recess.)
(Whereupon the trial is now being recorded by Senior
Court Reporter Jennifer Rosenblatt.)
***
THE CLERK: Indictment 1659 of 2014, case on trial.
Air parties are present. Jurors are not present.
THE COURT: Please have Detective Georg take the
stand. Please bring in the jury.
THE COURT OFFICER: Ready for the jury?
THE COURT: Yes.
(Whereupon, the jury entered the courtroom)
THE CLERK: Do both sides stipulate the jurors are
present and properly seated?

126a
MR. REGAN: Yes.
MR. MALTZ: Yes.
MR. SANTOS: Yes.
MS. POVMAN: Yes.
MR. STRACHAN: Yes.
MR. MUCCINI: Yes.
THE CLERK: The witness is reminded he is still under
oath.
THE COURT: Welcome back, ladies and gentlemen of
the jury. You may continue, Mr. Regan.
CONTINED DIRECT EXAMINATION
BY MR. REGAN:
Q Good afternoon, Detective.
A Good afternoon.
Q Detective, when we left off I was asking you about
your day on April 1st of 2014. Do you recall that?
A Yes.

127a
Q What time did you get to work that day?
A Approximately 3:30 p.m.
Q And where did you report to work physically? What
physical location?
MR. MALTZ: We went over this on direct.
MR. REGAN: It's after lunch. I am trying to get back
to where I was.
THE COURT: One question. Let's go.
Q Okay, you were at the Queens Gang Squad?
A Yes.
Q Who were you working with that day?.
A Officer Chris Kearney and Sergeant Habermehl.
Q Were you working in plain clothes or uniform?
A Plain clothes.
Q What was your – withdrawn
Did you have a plan for the day?
A Yes.

128a
Q What was the plan?
A In light of the recent gang violence -MR. MALTZ: Objection.
THE COURT: Overruled.
A In light of the recent gang violence we had discussed
earlier, our plan was to target our enforcement in the
S.N.O.W. gang neighborhood in an attempt to dispel
any possible retaliation attempt.
Q Did you have a specific area where you went to do
that?
A One of those areas was Bello Park.
Q One of those areas was in Montbellier Park?
A Yes.
Q Where is that located?
A It's located in Springfield Gardens on the corner of
Springfield Boulevard and 139 Avenue.
Q And could you describe the park?
A It's a New York City park. It's basically three
sections, There's a playground section, a basketball

129a
court with bleachers and then a soccer field. It's
surrounded by a chain link fence.
Q And what roads, if any, go right past it?
A On the eastern border is Springfield Boulevard. To
the south is 139 Avenue: The western border is Sloan
Avenue and the northern border is East Gate Plaza.
Q Were you familiar with that location prior to April 1,
2014?
A Yes.
Q How so?
A Montbellier Park, also known as Bello, is what is
known to us as a meeting hang out location of
S.N.O.W. Gang members.
MR. MALTZ: Objection.
THE COURT: Overruled.
Q Did you observe S.N.O.N. Gang members at that
park before?
A Yes.
Q On about how many occasions?
A Ohm, at least two.

130a
Q And had you heard about S.N.O.W. gang individuals
in that area on other occasions?
A Yes.
MR. MALTZ: Objection.
THE COURT: Overruled.
MR. MUCCINI: Objection.
THE COURT: Overruled.
Q Did there come a time when you left the Gang Squad
to do enforcement as you were saying?
A Yes.
Q About what time did you leave?
A Uhm, approximately, approximately 6:00 p.m.
Q And what kind of vehicle were you in?
A Unmarked vehicle. I believe it was a Toyota.
Q Who was in the car?
A Myself. I was the front passenger. Officer Kearney
was the driver and Sergeant Habermehl was in the --

131a
Q Who was driving?
Chris Kearney.
Q You had Sergeant Habermehl?
A Yes.
Q Where did you go?
A Ohm, we left the Gang Squad office and proceeded to
the first location which was the vicinity of Montbellier
Park traveling down Front, straight down to the North
Conduit. We made a right into Springfield Boulevard
and traveled north.
Q When you were traveling on Springfield Boulevard,
about what time is this?
A Can I refresh my memory?
THE COURT; Let us know what you're using.
Q Is there something that will refresh your
recollection?
THE COURT: Say what you're using.
A An arrest report.
MR. SANTOS: Can he state which arrest report? What
number DOS?

132a
THE WITNESS: This is the arrest report listed as
defendant Stephan Robert, arrest number 14620256.
Q Does it refresh your recollection as to when you were
driving on Springfield?
A Yes.
Q What time were you driving up Springfield?
A Approximately 6:30 p.m.
Q And this was April 1st?
A Yes.
Q Could you describe the lighting conditions at or
about 6:30 on April 1?
A It was clear conditions. Daylight. Sun was up.
Q Did you observe anything, did you see anything
when you were driving by Beilo Park on April 1st at
about 6:30 from the Springfield side?
A Yes.
Q What did you see?
A As I was traveling on Springfield Boulevard, I
observed a group of males, some of them I recognized

133a
as being S.N.O.W. Gangs members gathered on the
east side of the park by the basketball courts.
Q How many people was it in total?
A Approximately ten to 15.
Q Could you see – withdrawn.
You said they were gathered. Describe how they
gathered.
A Initially just in a group. I observed initially two
people gesturing with hand signs that are consistent
with gang membership.
Q Did you recognize by name anyone that you could
see from that vantage point?
A Yes, Sean Chung and Aquellio Parker.
Q Sean Chung, does he go by any other name?
A Yes. JP Smoov.
Q You talked about Aquellio Parker before; correct?
A Yes.
Q What nickname does Aquellio Parker go?

134a
A Que or Que Smoov.
Q Are either of those men or both of them S.N.O.W.
Gang members?
A Yes.
Q You said you saw hand signs. Could you describe
what you saw?
A I saw hand signs consistent with the Mobbed Out
Bosses gesture. They were making the letter M with -Q Could you show the jury what you saw?
A (Indicating)
Q Indicating with the left hand his middle and the ring
finger together. Then the little finger and index finger
out to the sides; is that correct?
A Yes.
Q How many people did you see doing that?
A Two.
Q Were those the same people you named or other
people?
A Other people.

135a
Q After you observed this group of people, what did you
do?
A I continued to observe them from my vehicle. As I
was, as I continued to observe them, I saw the group
form a tight circle in the location I described earlier.
Q Again, how many people was it?
A Again, approximately ten to 15.
Q You said they were in a circle. About how far away
were they from one another?
A They were in a tight huddle almost similar to almost
like a football huddle.

Q Did you see them doing anything?
A They appeared to be, to be passing something around
or looking at a common object between all of them.
Q Could you see what they were looking at or passing?
A No.
Q Could you see tell if it was large or small?
A. I could not see what it was.
Q After you observed this, excuse me – withdrawn.

136a
When you observed that, where were you
physically?
A At that point I was on Springfield Boulevard.
Q Heading in the same direction?
A Heading south.
Q So initially when you saw them, you were heading
north?
A Yes.
Q At some point you reversed direction?
A Correct.
Q Heading south is when you saw the group huddled?
A Yes, that's correct.
Q What did you see after you saw the group huddle
passing around or looking at an object?
A I proceeded to Sloan Street and parked at a vantage
point where I could continue to observe the group far
enough away so I would not be – they would not see us
observing the group.
Q Sloan Street was on what side of the park?

137a
A The west side.
Q Springfield was on the east. Sloan is on the west?
A Yes. That's correct.
Q When you were on Sloan Street, where did you
situate the car so you could observe? Describe where
you were for the jury.
A Um, we were parked facing southbound on Sloan
Street. So it would be facing southbound parked
toward the, north end of the park closer to East Gate
Plaza.
Q I want to back up a little bit. When you're first going
northbound on Springfield and you first see the group,
approximately how far were you from the group?
A When I first saw past –
Q Yes.
A Um, just the width of Springfield Boulevard. So
maybe, I am not sure. Maybe 20 feet. Twenty, 30 feet.
Q When you saw them the second time when they
huddled in the group, how far were you away from
then?
A A bit closer being I was on the side of the street that
was closest to the park. So to paint – I would have been
a little bit less than --

138a
Q When you were parked on Sloan Street,
approximately how far were you away from the group?
A Uhm, maybe 300 feet.
Q You said you were sitting in the front of the car;
correct?
A Yes.
Q Did you have anything with you that aided you in
observing these individuals?
A Yes, I had binoculars.
Q Was there anything between you and this group that
inhibited your ability to view them?
A The only thing would have been the chain link fence
between where we were parked and where they were
gathered.
Q Flow long did you observe them for?
A Approximately 30 minutes or so.
Q During that time, did you have any cell phone with
you?
A Yes.

139a
Q Did you do anything with that cell phone while you
were sitting there?
A While observing the gathering at the park, I checked
the Facebook account that we discussed earlier to
monitor any social media that might be occurring.
Q Did you observe any postings that were relevant to
what you saw?
A I observed a post from a Facebook account belonging
to Mr. Cato and the post simply said Bello linkz dot dot
dot.
Q You said Mr. Cato. What was name of the Facebook
account that posted that?
A DA Real Ko Bang.
Q Now, this account where you were friends with in
your – that was an account, a surreptitious account on
Facebook?
A Yes.
Q Did anybody or any individuals like that post?
A Yes.
Q What does it mean to like a post?
A You have an option on Facebook where you can like

140a
something. It means you're acknowledging that you
like it. And I observed Mr. Justin Campbell liked that
post.
Q Was it under the name Justin Campbell or a
different Facebook name?
A Under Jay Biggar.
Q Did you observe anybody else like that Facebook
post?
A Yes.
Q Who?
A I believe Aquellio Parker.
Q Is that Que Smoov you talked about before?
A Yes.
Q Justin Campbell is the individual you identified in
Court earlier today; is that correct?
A That's correct.
Q Dane'e Cato also is the person you identified in court
earlier; is that correct?
A Yes. That's correct.

141a
Q You observed Aquellio Parker inside of the park on
April 1st when you were on Springfield Boulevard;
correct?
A Yes.
Q While were you sitting on Sloan Street observing
this group, what were they doing?
A They just continued to be gathered in that area in
the park.
Q And you said you were there for how long?
A About 30 minutes.
Q And so that would bring you to about 7:00 o'clock;
correct?
A Yes
Q What was the lighting conditions like out at seven
It was still sunny. The sun was up. It was light, lit.
Q Did you call any other police units while you were
waiting there and observing these individuals?
A Yes, I did, I notified members of my team to respond.
Q Who was in your team on that day?

142a
A It was the officers that I named prior to that. I was
with also Officer Steven Lalchan, Steven L-A-L-C-H-A-N, Officer Desmoreau, D-E-S-M-O-R-E-A-U, Officer -Detective Rod Pereira, Officer Daniel Sjoberq.
Q Did you call any other officers from any other police
units?
A Yes. I notified members from the 113 S.E.T. Team as
well.
Q Which officers did you speak to from the S.E.T.
Team?
A Officer Matt Lewis and Detective Thomas Reo.
Did they all – how did you contact them?
A By telephone.
Q Did you ask them to do anything?
A Uhm, yes. I asked them to respond to the area of
Bello Park.
Q Why did you ask them to respond?
MS. POVMAN: Objection.
MR. MALTZ: Objection.
MR. MUCCINI: Objection.

143a
MR. SANTOS: Objection.
MR. STRACHAN: Objection.
THE COURT: Rephrase.
Q Tell us what you did.
A I asked them to respond.
Q You called them and asked them to respond?
A Yes.
Q Did you have a plan when you observed this group of
people gathered in the park?
A Yes.
Q What was your plan?
A Our plan was to effect arrests for unlawful assembly.
Q What made you think there was unlawful assembly?
MR. MALTZ: Objection.
MR. MUCCINI: Objection.
MR. SANTOS: Objection.

144a
MS. POVMAN: Objection.
MR. STRACHAN: Objection.
THE COURT: Sustained.
MR. REGAN: Can we come to sidebar?
THE COURT: Come up.
(Whereupon, the following takes place at sidebar
conference)
MR. REGAN: Judge, I am going to ask that I be
allowed to elicit was doing – what Detective Georg was
doing. I believe that at the time in light of the defense's
opening, specifically Mr. Strachan's opening for
defendant Cato, he said, I am going to prove to you
that this case is about an arrest; that I am going to
prove that wasn't right, that took place on April 1st. I
am going to prove to you on April 1st Police Officer
Georg was riding in the car and saw a bunch of young
black men in a park. I am going to prove to you that he
thought criminal activity was afoot; that I am going to
prove that once he saw these young black men in the
park and I am going to prove it's not a crime to be in
the park. It's not a crime for black men to be in the
park, but after he saw these black men he called
brother officers and those brothers officer and him
went to the park and arrested every black male in that
park. That's the case. I am going to prove how that was
illegal. I am going to prove to you they had no basis to
arrest those men, those boys in the park.

145a
Judge, in light of that opening, I think it's
relevant, all of the information that the detective had
when he went to effect the arrest. He indicated that he
had information and reason to believe based on
Facebook postings that he talked about, including a
Facebook posting by Aquellio Parker who was in the
park and posting by Dane'e Cato and recognizing just,
excuse me, Sean Chung and Aquellio Parker.
Remember it was those postings after Red was dead. I
don't think this came out at the hearing where, you
know, that the posting indicates that they were very
upset about, by Red's death and they were talking
about give back back or retaliation. I think that goes to
whether or not he believed at the time it was unlawful
assembly simply that is why he moved in. It's being
offered to explain the actions of the police in this case.
The jury shouldn't be left to think they went to the
park and just there was, there was a bunch of black
males congregating in the park. That's what the
defense wants them to believe based on his opening.
That's not the case.
MS. POVMAN: Opening statements are not evidence.
The DA elicited already from the officer that he
observed them in the park. He believes it was he went
in to arrest for unlawful assembly.
MR. REGAN: The objection was sustained to that.
MS. POVMAN: After. That's a legal question. He can't
testify to. The Court already ruled there was no
probable cause for that arrest.
MR. REGAN: As to Sean Chung. They never litigated
as to anyone else.
MR. STRACHAN: Now we are playing games.

146a
MR. REGAN: I don't want to throw people under the
bus. I am -THE COURT: Overruled.
(open court)
THE COURT: Can we have the question read back?
(Whereupon, requested portion was read back by the
reporter)
A Many factors went into that determination, the
recent violence again S.N.O.W. Gang members
followed by the posts explaining likely retaliation.
MR. MALTZ: Objection.
MR. STRACHAN: Objection.
MR. MALTZ: Beyond the question.
THE COURT: Overruled.
A After reading the post which led myself to believe
that there was likely retaliation coming from S.N.O.W.
gang in conjunction with debriefing that I've done with
S.N.O.W. Gang members informing me that.
MR. MALTZ: Objection. Hearsay.
THE COURT: Sustained as to what he was informed.
THE WITNESS: Can I continue?

147a
Q Okay, you stated it was social media, your
experience with S.N.O.W. Gang members and any
other factors?
A My knowledge that S.N.O.W. Gang meetings are
known to take place and that the purpose of these
meetings are to plan future crimes.
MS. POVMAN: Objection.
MR. MALTZ: Objection.
MR. STRACHAN: Objection. Move to strike.
THE COURT: Sustained. Stricken.
Q What about the location itself?
A The location of the park Bello is significant to
S.N.O.W. Gang. It's S.N.O.W. Gang turf.
MR. STRACHAN: Objection. Foundation.
MR. MALTZ: Objection.
THE COURT: Overruled.
Q You stated your plan was to move and make arrests
for unlawful assembly?
A Yes.

148a
Q You contacted other units; correct?
A Yes.
Q Row long did it take for them to arrive?
A Approximately ten minutes.
Q Okay, did there come a time when you met up with
those other units?
A Yes.
Q Where did you do that?
A On Sloan Street closer to East Gate Plaza.
Q Was there a plan developed in how this arrest or
these arrests were going to be carried out?
A Yes.
Q What was the plan?
A Uhn, the plan was for the responding unit to block
off exits to the park and for Lalchan and Desmoreau to
approach in their vehicle. As they got close, Officer
Desmoreau approached on foot. We call it a walk on to
the park.
Q Okay, so while Lalchan and Desmoreau were
together --

149a
A Yes.
Q -- how were you going to be traveling?
A I was with Officer Kearney and Sergeant
Habermehi.
Q What was your job in this walk on or this arrest?
A I was going to assist in apprehending the individuals
for the unlawful assembly.
A How many exits were there to Bello Park in that
area that these individuals were in?
A Three are three.
Q And where are they?
A One on either side, on the east side and the west side
of. the park, and one to the south side of the park.
Q The exit on the east side of the park, what street
does that go to?
A That's Springfield Boulevard.
Q The exit on the west side?
A Sloan Street.
Q And the exit on the south side?

150a
A 139 Avenue.
Q Where were Desmoreau and Lalohan going to
arrive?
A Drive southbound on Sloan Street from where we
were meeting and approach towards the western
entrance exit to the park.
Q That's the entrance on Sloan Street?
A Correct.
Q Was there any unit assigned to the Springfield hide?
A That was --I don't recall specifically which unit was
going to the Springfield side.
Q And was a unit assigned to go over to that location,
to that entrance?
A Yes.
Q How about the exit to the south?
A Yes.
Q What happened after the plan was discussed among
the officers?
A As the other units began to move towards the exit,
Officer Lalchan and Desmoreau began to proceed in
their car towards the west side of the park.

151a
Q Where were you when this was happening?
A I was positioned on Sloan Street again to the north
end of Sloan Street side, East Gate Plaza.
Q What happened after they went down Sloan Street?
A Um, as we began to get closer to the park, the first
thing that I saw was Aquellio Parker running north on
Sloan Street towards where I was parked.
Q You're parked on Sloan Street facing south?
A Correct.
Q You see Parker running north?
A Yes.
Q He was running toward you?
A Running toward us, yes.
Q What happened when you saw him running towards
you?
A As I saw him running towards me, we proceeded,
Officer Kearney was the operator of the car. He started
to proceed south in the direction of Mr. Parker in an
attempt to apprehend him.

152a
Q Okay, before that, before you saw Parker run, were
there any radio communications that you heard?
A Uhm, no.
Q When you saw Parker, what did you do? Did you get
out of the car?
A We drove about halfway down Sloan Street and
myself and Sergeant Habermehl exited the vehicle, our
vehicle, and began to chase Mr. Parker on foot.
Q He was running towards you?
A Yes.
Q What happened when you started to chase him?
A When he saw us get out of the car he changed
direction and began to run south towards 139 Avenue.
Q What happened when he started to run southbound
towards139?
A As he ran southbound, the officer, Detective Reo
from the 113 was able to tackle him and we placed him
under custody.
Q You observed Officer Reo take him to the ground?
A Yes.

153a
Q Who handcuffed him?
A I did.
Q Where was that?
A That was in front of a residence on Sloan Street.
Q While this was happening, were you able to also
observe the park?
A Yes.
Q Did you see any other individuals leaving the park
at that time?
A Everyone was running at that point and at one point
I saw Mr. Jahmaley Jones and Exondus Barnes run
from the south exit of the park and run westbound on
139 Avenue.
Q Where were 'you when you saw that?
A I was about halfway the length on down Sloan
between East Gate and 139 Avenue. About midway
through the block.
Q Jahmarley Jones you identified in Court previously;
correct?
A Yes.
Q After you observed Jones and you say Barnes?'

154a
A Yes.
Q On 139 Avenue, what did you do?
A I proceeded to get in the vehicle that belonged to the
113 along with Detective Reo and Lewis and proceeded
to canvass or look for individuals I saw running.
Q Reo and Lewis are members of the 113?
A Yes.
Q Are those officers that you had called to come to the
scene when you observed the meetings?
A Yes.
Q You said you got iii a car. Whose car was it?
A Uhm, the car belonged to the 113.
Q You had just handcuffed Aquellio Parker?
A Yes.
Q What happened to Mr. Parker? Did you go with him
or leave him?
A I believe he went into the vehicle that Officer
Kearney was operating.

155a
Q You got in a different vehicle?
A Yes.
Q All of these vehicles we are talking about are all
marked or unmarked cars?
A All unmarked cars.
Q And all the officers we are talking about are in plain
clothes or uniform?
A Everyone was in, was in plain clothes.
Q After you get into the car with the 113 officers,
Officer Reo and Officer Lewis, where did you go?
A Proceeded west on 139 Avenue and onto 140 Avenue
in the vicinity of – I don!t remember the cross street,
West gate Street.
Q What is over there? What kind of buildings are over
A It's mostly a mixture of commercial and residence.
There was a commercial strip of bodegas and taller two
or three story residential units.
Q And did you see anything when you got over in the
vicinity on 140 Avenue?
A I saw the two individuals that I saw exiting the park,
I saw them standing in front of bodega.

156a
Q Who were they?
A Exondus Barnes and Jahmarley Jones.
Q What happened when you saw though two
individuals standing in front of the bodega?
A As we pulled up, they saw us. They quickly entered
into the store.
Q What did you do?
A Myself and Officer Reo exited our vehicle and
proceeded into the store and placed them into custody.
Q What about M. Jones, what was he wearing?
A He had a gray sweat shirt with a darker colored.
vest.
Q Did you know his name at the time?
A I did not.
Q Did you know his name when he was placed under
arrest, were you present when he gave his name to any
of the officers there?
A Yes.
Q What did he say his name was?

157a
A Stephen Roberts.
Q After Mr. Jones ' and Mr. Barnes were placed in
custody, what happened?
A We proceeded back to the park and we all met back
up in Bello Park and kind of got everything together
before we proceeded back to the 113 Precinct for
process.
Q When you got back to the park, did you see any other
individuals who were there then in custody that had
not been in custody when you left to go down 140
Avenue?
A Yes.
Q Who else did you see at the park at that time?
A Justin Campbell.
Q Did you see Sean Chung?
A Yes, I did.
Q Where was he?
A He was in the park. In the park in cuffs.
Q How about an individual named Michael Adel
Hareem?
A Yes.

158a
Q How about Aquellio Parker?
A Yes.
Q How about someone named Daren Ducrepin?
A Yes.
Q How about an individual named Lad Jappa?
A Yes.
Q Would it be fair to say the only individual you
actually observed being taken into custody were and
Barnes; correct?
A Yes. That’s correct.
Q Had you seen any of the other individuals, did you
recognize them as being part pf that ten to 15 person
group that you observed in the park initially?
A Yes.
Q What was that based on?
A Based on my observations from Springfield
Boulevard and my further observations from Sloan
Street, I was able to see their clothing and things of
that nature.
Q After you got back to the park, what happened?

159a
A Uhm, we got to the park, we kind of informed, we got
back to the others, discussed about what happened and
we began to transport the prisoners back to the 113
Precinct.
Q How far is the 113 Precinct from Bello Park?
A Probably maybe a half mile, three quarters Of a
mile.
Q Is that where all of the individuals we talked about
how who were in custody were brought?
A Yes.
Q What happened when everyone got back to the
precinct?
A Uhm, when everyone got back to the precinct, we
began the basic arrest process. Everyone was in front
of the desk. We inform everyone that--let me rephrase.
We ask everyone their name and date of birth and
pedigree information and inform everybody it is crime
to give false information to the police at

160a
GEORG - PEOPLE- DIRECT
Q Moving forward to page 92, 2956.
A Cato states; 18 links wya.
Chung states; we not gone plan this out fb tho
that's how them wave Gang niggas got knocked.
Q What is fb?
A Face book.
Q And the Wave Gang, are you familiar with that?
A Yes.
Q What did that involve?
A Wave Gang was a gang in Brooklyn that was
charged
MS. POVMAN: Objection.
MR. MALTZ: Objection.
MR. SANTOS: Objection.
MR. STRACHAN: Objection.

161a
MR. MUCCINI: Objection.
THE COURT: Sustained.
MR. STRACHAN: Move to strike.
THE COURT: Stricken.
Q Was it publicly reported what happened to the Wave
A Yes.
MR. SANTOS: Objection.
MS. POVMAN: Objection.
MR. STRACHAN: Objection.
MR. MUCCINI: Objection.
MR. MALTZ: Objection.
THE COURT: Sidebar.
(Whereupon, the following takes place at sidebar
conference)
THE COURT: Can I have the question read back?
(Question was read back by the Reporter)

162a
MR. STRACHAN: It's totally irrelevant. This has
nothing to do with the Wave gang. It has nothing to do
with this matter. This is a claim from the Prosecution,
this is a S.N.O.W. Gang matter and they're saying they
retaliated to the Wood City Gang. They're bringing up
issues about a Brooklyn gang and it's absolutely
.irrelevant whether it's publicly known or not. It has
nothing to do with this case.
MR. REGAN: JP Sean Chung is saying we shouldn't
plan this out on F'acebook because that's how the Wave
gang got caught. What he knows or should know at
that point about the Wave Gang is relevant because he
is saying the Wave gang got caught by posting on
Facebook. We shouldn't post it on Facebook. It goes to
their intent on what they knew they were doing was
illegal and was going to actually be possibly a crime or
homicide. He said let's not plan this on Facebook. This
is how the Wave Gang got knocked.
MS. POVMAN: This sort of interpretation is exactly
the type of expert fact testimony that is precluded
under U.S. v Mejia and the Court of Appeals case Inoa.
And the D.A. is asking this witness to interpret
hearsay and apply that hearsay to the facts of this
case. That is exactly what the cases prohibit.
MR. REGAN: I asked what the Wave gang is.
THE COURT: That's different than what you are
saying.
MS. POVMAN: He is saying how does the statement of
the Wave Gang apply to this case.
MR. REGAN: No.

163a
THE COURT: He is asking the question:
MS. POVNAN: In essence -THE COURT: The question is what was the Wave
gang incident.
MS. POVMAN: That's hearsay. This has nothing to do
with – he is testifying to what he read in the
newspaper.
MR. REGAN: Obviously Sean Chung, I am not saying
Sean Chung was in the Wave Chung --I am sorry, he
knows what happened to the Wave Gang.
MS. POVMAN: How do you know that?
MR. REGAN: He is posting what happened to the
Wave gang.
THE COURT: Overruled.
(open court)
Q Was the Wave Gang investigation publicly reported?
MS. POVMAN: Objection.

164a
Proceedings
would be, in fact, March 31st Eastern time.
Scrome Da Boss says, what's ur number bro?
Q What number does E Brazy Swann reply with?
A E Brazy Swann says, 13473552770.
Q So returning to People's 52, Justin Campbell's
Facebook call number 3108, is that the same number
that is the called number on that record?
A Yes.
MR REGAN: I would like the witness to be handed
People's 50 in evidence, Fabdon Felix's Facebook
record.
MS. POVMAN: Judge, I have an objection. I would like
a sidebar.
THE COURT: Sure.
(Whereupon, a discussion was held by and between all
counsel and the Court at the sidebar, out of the hearing
of the jury, and on the record as follows:)
MS. POVMAN: Judge, I'm going to object to this line of
questioning under United States vs. Mejia 545 Federal
3d 179, which was also followed in People vs. Inoa, I-NO-A, which I thought I had the site but I can provide it
later.

165a
Judge, what he is doing now, this witness was
qualified as an expert in the S.N.O.W. Gang hierarchy,
S.N.O.W code language. He's now converting this
witness from an expert witness into a fact witness. And
he is actually proposing to the jury his summation.
What he's doing now is he's no longer interpreting
the code language of the S.N.O.W. Gang, he is now
interpreting the evidence and he's summarizing the
evidence by being asked to compare Exhibit 48in
evidence with Exhibit 38 in evidence. That's the D.A.
's job on summation; It's not this expert witness's job to
interpret the evidence. He's usurping the jury's
function and this has been criticized and overruled in
the Second Circuit, as well as the Court of Appeals in
New York.
MR. STRACHAN: Mr. Cato joins in that objection.
MR. MALTZ: Mr. Lucas joins in that objection.
MR. MUCCINI: Mr. Campbell joins in that objection.
MR. SANTOS: Mr. Milling joins in that objection.
MR REGAN: I'm not asking him to interpret anything.
I'm asking him to read documents that are already in
evidence and not offer any interpretation.
MS. POVMAN: But he's not qualified to do that;
MR REGAN: He's not qualified to read documents in
evidence? Okay.
MS. POVMAN No, you can't have every witness read
everything --

166a
THE COURT: Overruled.
(Whereupon, the following took place in open
*

*

*

Proceedings
A Yes.
Q And you had parked right by the park and had
binoculars. what kind of binoculars did you have?
A I don't recall what kind.
Q You were about 30 feet away you said from the park,
right?
A No. At that point when I was by the park I was on
Sloan Street with the binoculars I was closer to 300
feet away.
Q Three hundred feet away and you see this group of
people you saw doing something with their hands; you
saw no firearms in their hands, right?
A I did not observe a firearm.
Q And you didn't see any criminal activIty going on, is
that correct?
A I observed what I believed to be an unlawful
assembly. I did not observe a firearm.

167a
Q You didn't see any crime take place, co±rect?
MR. REGAN: Objection. Calls for a legal conclusion.
THE COURT: Sustained.
Q I'd like to take you back to the hearing by the way,
when you were observing these 12 people or 15 people,
you looked at their faces, correct?
A Yes,
Q Mr. Trevor Lucas was not there, right? And you
called for what, other vehicles to show up at the scene?
A Yes.
Q And then at that time some of the officers in your
vehicle, including yourself in your car, ran into the
park, right?
A That's incorrect referring to myself.
Q Did you leave your vehicle and walk into the park?
A More accurately, I proceeded in the car south on
Sloan. I exited the car and chased Aquellio Parker. I
later entered another vehicle and canvassed for the two
other individuals that were apprehended outside the
park.
Q Okay. Before you go on, you stopped them for what
reason? Because they happened to be in the park?

168a
MR. REGAN: Objection.
THE COURT: Sustained.
Q You consider their presence in a public area, a New
York City public park, Bello Park by the basketball
court at 7 o'clock in the morning - - 7 p.m. I mean you
thought it was illegal to be there at 7 o'clock at night?
A In light of everything I had explained earlier, I
believed that to be an unlawful assembly meeting for
the purpose of planning a •future crime. Okay.
MR. MALTZ: Objection.
MR. SANTOS: Objection.
*

*

*

Det Georg - People - Cross (Mr. Strachan)
Okay, Pages 11 to 15, there's nothing written by Mr.
Cato?
A That's correct.
Q 16 to 20, there’s nothing written by Mr. Cato?
A correct.
Q 21 to 25, there's nothing written by Mr. Cato?

169a
A Correct.
Q 26 to 30, there's nothing written by Mr. Cato?
A Correct.
Q 31 to 35, there's nothing written by Mr. Cato?
A Correct.
Q 36 to 40, there's nothing written by Mr. Cato?
A Correct.
Q Oh, by the way – sorry – Detective, what does jackin'
mean?
A It has multiple meanings.
Q It has multiple meanings?
A Yeah.
Q Okay. What are some of the multiple meanings?
A Jackin' something is to claim something.
Q Claim something?
A Correct.

170a
Q Okay. So if I jack something, I'm claiming it?.
A Correct.
Q And the negative? If I say, I'm not jackin' something,
I'm not claiming it?
A I would have to see it used in a sentence for the
proper meaning.
Q So you're saying jackin' means claiming something
or representing something?
A For instance, to jack L.O.E. means you're claiming to
be a member of L.O.E,
Q So if I'm not jackin' L.O.E., I'm not claiming to be a
member of L.O.E.? Is that how you define that?
A If someone said, I'm not jackin' L.O.E.?
Q Yes.
A It could be saying they're not claiming L.O.E.
Q I'm not down with it? I'm not part of L.O.E.? Could
you read it that way?
A Again, I would have to see the actual --it's a slang
term. I would have to see it in the sentence to see the
proper meaning.

171a
Q So you use some common sense textually as far as
defining what a term means?
A It's just a word that has a broad meaning.
Q Okay. So it could mean many things?
A Yes.
Q If someone said, I'm not– I'm not – I'm not jackin'
that, could that mean I'm not down with that?
A Again, I would have to see how it was used.
Q Could it mean that in your expert opinion based on
the S.N.O.W. Gang language? I'm not jackin' that.
A It could mean – it could mean I'm not down with that
or I disagree with you or I don't want
Q Or I'm not down with that?
A It could have several meanings.
THE COURT: You're asking the same question and
he's giving you the same answers.
Q Page 41 to 45, there's nothing written by Mr.
Cato,correct?
A That's correct.

172a
Q 46, there's nothing by Cato?
A Correct.
Q Okay. 47 and 48, is there a – that's a discussion
about a key?
A It's a discussion about making a copy of a car key at
Home Depot.
Q Okay. A copy of car keys. Okay. But there's nothing
in 47 and 48 about, let's kill – let's kill somebody –
there's nothing in there, is that correct, in those two
pages?
A That's Correct.
MR. STRACHAN: Can I get Dane'e Cato's
presentation? I forget the number. Is it 51? I'll give you
he number. It's 51.

173a
Dt. Georg- People - Cross/Strachan
Q Detective Georg, what are the multiple meanings of
the term jacking?
A Uhm, well, as I stated, it would depend how it is
used in a sentence. To jack is generally to claim
something. Either to claim membership in a gang, to
make some sort of statement about something, like
they're jacking. I don't know, they're jack that they saw
that. Uhm, it can mean to associate with someone you
know. Don't jack with me if you're going to act that
way or I am not jacking with you.
Q Then how many different meanings to the term
jacking are there?
A Uhm, as I stated, those are the ones that I stated
that I can think of at this time.
Q So that's representing or associate. Are those
similar? Are those – you think those are different?
A Again, it would depend how it's used in a sentence.
If you were using, I am jacking S.N.0;W. Gang, I am a
member of S.N.O.W. Gang. You are saying, you know,
don't jack my shit, you might say don't associate with
me. We are not friends.
Q Are there any other S.N.0.W. terms that have
multiple meanings?
A There is none I can think of off the top of my head.
couldn't say, no, at this time.

174a
Q And when a word has multiple meanings, a
particular interpretation can be wrong; is that correct?
* * *
DT.Georg - People - Cross/Strachan
Q No. I am just saying, based on your expertise as an
expert in the S.N.O.W. Gang language, you have
indicated that some S.N.O.W terms have multiple
meanings. I am just saying that you may have
difficulty determining whether or not what someone
writes is actually what they seriously think or maybe
not?
A I didn't feel like I had any difficulty in interpreting.
That's all I can really testify to.
Q Based on the person who is offering the Facebook
entry, you don't know if that person is someone who is
a jokester or someone who is serious in anything they
write they mean; is that correct?
A Can you rephrase it?
Q You couldn't be – since you don't know the person
who wrote the Facebook entry, you don't know if that
person is someone who is writing seriously or maybe he
is just a jokester?
A Again, I would have to take everything into account
with information that I have to make the best
judgment I can.
Q The information you have is primarily just reading

175a
Facebook entries?
A Uhm, again, as I stated earlier in my testimony, it
would be from all of the investigative techniques I
described between debriefing, between doing work on
the street, reviewing police reports, that would help
paint the picture of activities of the gang at large. We
will say, take that in conjunction with the text.
Q Primarily you're reviewing thousands of F'acebook
entries; isn't that correct?
A Yes.
Q And you said the debriefing, these are debriefings
that haven't been taped or videotaped; is that correct?
A That's correct.
Q You're reading statements from police reports,
reports from people who aren't in court today; is that
correct?
A I suppose that would be true, yes.
Q You didn't serve a subpoena on anyone to testify in
this case; correct?
A No.
MR. REGAN: Objection.

176a
THE COURT: Sustained. Stricken.
MR. STRACHAN: May I have one moment?
THE COURT: Yes.
Q Detective, I am going to show you what has been
marked as Defendant's Exhibit C for identification.
THE COURT: I don't have C. I don't have B. What is
B? Nothing gets marked without me knowing.
MR. STR.ACHAN: Excuse me, Judge. B, it's a
photograph.
Q Let me show you Defendant's Exhibit B.
THE COURT: May I see B? Thank you.

177a
Det. Georg - People - Redirect
Q You were asked – excuse me. Withdrawn. Unlawful
assembly is that a crime?
A Yes.
Q It's in the Penal Law?
A Yes, it is.
Q So what you observed in the park, did you believe to
be a crime?
A Yes.
MR. MALTZ: Objection.
THE COURT: Overruled.
A Yes, I did.
Q That's when you called for assistance from your
fellow officers, correct?
A Yes, that's correct.
Q Why did you believe what you saw was unlawful
assembly?
MR. MALTZ: Objection.

178a
MS. POVMAN: Objection.
MR. SANTOS: Objection.
MR. STRACHAN: Objection.
MR. MUCCINI: Objection.
THE COURT: Sustained.
Q What information did you have that led you to
believe that It was unlawful assembly?
MR. MALTZ: Objection.
MS. POVMAN: Objection.
MR. SANTOS: Objection.
MR. STRACHAN: Objection.
MR. MUCCINI: Objection.
THE COURT: Overruled.
A As I stated earlier in my testimony, my knowledge of
the gang, my knowledge of that being a meeting
location of the gang. The social media posts we had
discussed. My observation of previous meetings of the
gang. My observations of videos posted on-line of
meetings and –I shouldn!t say meetings, fights in that
park involving members of the S.N.O.W. Gang, and the

179a
overall circumstances which we discussed in regards to
the shooting of Mr. Thomas and Mr. Bowlin.
Q You were also asked about whether you observed
photos in. your review of Facebook records, correct?
A Yes.
Q Mr. Maltz asked you if you saw any photographs
with multiple members of the gang in it, over 30
members, do you remember that?
A Yes.
Q In your review of the 100 thousand or more pages of
the Facebook records, did you see photographs
containing large groups of members of the S.N.O.W.
Gang?
MR. SANTOS: Objection.
* * *
Det. Georg - People - Redirect
Q Put that to the side. You testified during cross you
couldn't think off the top of your head of any words
that the S.N.O.W. Gang uses that have multiple
meanings; correct?
A Yes.
Q How about the word drop?

180a
A Yes, that would be one.
Q Okay, and what are the possible meanings of the
word drop?
A Um, one meaning can mean a subordinate gang
member. This person my drop. They're below me in the
gang. Another meaning would be say to have the drop
on someone, like have an advantage, have some
information on, I have the drop on them.
Q In order to determine which is the correct
interpretation, you would have to look at the context of
the statement; correct?
MR. MALTZ: Objection. Leading.
THE COURT: Overruled.

MR. STRACHAN: Objection.
THE COURT: Overruled.
A Yes, that is correct.
Q Mr. Strachan spent sometime going through several
pages of the Facebook records with you. I don't believe
he went over the entry we just went over.
MR. STRACHAN: Objection to that comment.

181a
Proceedings
just that the exhibit itself is not available for your
inspection and consideration.
The evidence also includes the stipulations
entered into by the parties. A stipulation is
information the parties agree to present to the jury as
evidence without calling a witness to testify.
In evaluating evidence, you may consider any
fact that is proven and any inference which may be
drawn from such facts. To draw an inference means to
infer, find, conclude that a fact exists or does not exist
based upon proof of some other fact or facts. An
inference must only be drawn from a proven fact or
facts and then only if the inference flows naturally,
reasonably and logically from the proven fact or facts,
not if it is speculative.
Therefore, in deciding whether to draw an
inference, you must look at and consider all of the facts
in light of reason, common sense and experience. If two
or more inferences can be drawn from a given set of
facts, one of lack of guilt and the other of guilt, I charge
you that you must, under the circumstances, draw the
inference o lack of guilt. Ladies and gentlemen, during
the course of the trial, there has been extensive
testimony regarding the S.N.O.W. Gang, other rival
gangs, including the Wood City Gang, and the alleged
membership of these five defendants within the
S.N.O.W. Gang.
I instruct you now that gang membership, in
and of itself, whether it be within the S.N.O.W. Gang
or any other gang, is not evidence of any wrongdoing,
and should not be considered by you as evidence of the
guilt of any one or more of the defendants for any of the
crimes contained in the indictment, including
Conspiracy in the First and Second Degrees. To the
extent you find it credible, in whole or in part, evidence
relating to gangs and these defendants should be

182a
considered by you in the same manner that you will
consider any other evidence offered at this trial.
Some of the evidence at trial, including
Facebook postings that you viewed on the monitor in
the courtroom, concern conversations and incidents
that occurred prior to the dates of the alleged
conspiracy. That is March 30 to April 1 of 2014. The
Court allowed this material into evidence to provide
you, the members of the jury, with a background of the
history, the culture, the hierarchy, prior dealings with
rival gangs, and the coded language of the S.N.O.W.
Gang. Of course, you're free to accept or reject this
particular testimony, to the extent that you find it
credible or not, including as it may bear upon the issue
of motive for the commission of any of the crimes
contained in the indictment by any of the defendants.
However, any evidence of previous wrongdoing
by any one or more of the defendants on trial prior to
the formation and the actual ongoing events of the
alleged conspiracy shall not be considered by you with
regard to the guilt or lack of guilt of any of the
defendants for any of the crimes that will be submitted
for your consideration. To find these defendants guilty
of any of the crimes they have been charged with, the
People are required to prove to your satisfaction,
beyond a reasonable doubt, each of the elements of a
particular crime, as I shall instruct you later in my
charge on the law.
There are five defendants before you and we are
thus conducting five trials in one. It is your obligation
to evaluate the evidence as it applies or fails to apply
to each defendant separately. As you will note, all of
the defendants have not been charged with the same
crimes. Each instruction on the law must be considered
by you as referring to each defendant separately. You
must return a separate verdict for each defendant and
those verdicts may be, but need not be, the same. It is
your sworn duty to give separate consideration to the
case of each individual defendant.

183a
We now turn to the fundamental principles of
our law that apply in all criminal trials; the
presumption of innocence, the burden of proof and the
requirement of proof beyond a reasonable doubt.

